AUDIT OF THE BUREAU OF ALCOHOL, 

    TOBACCO, FIREARMS AND 

  EXPLOSIVES' USE OF INCOME­

   GENERATING, UNDERCOVER 

        OPERATIONS 


        U.S. Department of Justice 

      Office of the Inspector Genera l 

               Audit Division 


            Audit Report 13-36 

             September 2013 

AUDIT OF THE BUREAU OF ALCOHOL, TOBACCO, FIREARMS 

   AND EXPLOSIVES’ USE OF INCOME-GENERATING,

              UNDERCOVER OPERATIONS



                             EXECUTIVE SUMMARY


         The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) is
responsible for the investigation and prevention of federal offenses involving
the unlawful use, manufacture, and possession of firearms and explosives,
acts of arson and bombings, and illegal trafficking of alcohol and tobacco
products. In conducting its undercover operations, ATF may participate in
transactions that are normally prohibited by federal law. In most of these
illicit transactions, ATF uses appropriated funds to make any purchases and
deposits any proceeds into the Department of the Treasury’s General Fund.

      However, in 2004, ATF was granted the same authority previously
provided to the Federal Bureau of Investigation (FBI) and the Drug
Enforcement Administration (DEA) to use proceeds generated from these
undercover operations to offset necessary and reasonable operational
expenses related to the same operations. ATF refers to this authority as
“churning authority,” and to cases that use such authority as “churning
investigations.” To date, the ATF has used this authority only to investigate
tobacco diversion, which involves efforts to evade state, local, or federal
tobacco taxes.

      The Office of the Inspector General (OIG) conducted this audit to
determine whether ATF: (1) properly authorized income-generating
undercover operations (churning investigations); and (2) provided adequate
management and oversight of its churning investigations.1 Our audit
included a review of 20 of the 36 churning investigations conducted by ATF
between February 2006 and June 2011 that generated total reported
revenues of nearly $162 million.

      We found a serious lack of oversight by ATF at both the headquarters
and field office levels during the period of time covered by the audit. ATF’s
guidance regarding churning investigations lacked breadth and specificity,
and managers at ATF headquarters as well as managers and Special Agents


       1
          During this audit, we identified certain issues requiring further investigation. We
referred those matters to the OIG’s Investigations Division, and put our audit on hold
pending such investigation. Subsequently, we were able to complete our audit and issue
this report.


                                              -i-
at ATF field offices often disregarded it. We found that ATF proceeded with
churning investigations without proper approval, misused the proceeds from
churning investigations, and failed to account properly for cigarettes and
assets purchased during churning investigations.

      With respect to approval of churning investigations, we found that
none of the 35 requests for churning authority approval submitted to ATF
Headquarters and the Department between February 2006 and June 2011
had been reviewed by ATF’s Undercover Review Committee prior to
submission to the Department, as was required by ATF policy. Indeed, we
were told that ATF’s Undercover Review Committee did not meet between
February 2005 and January 2012. Additionally, we found that 33 of 35
requests did not include critical information in the request as required by
ATF policy.

       We also identified one churning investigation that was never
authorized by ATF Headquarters or the Department. The unauthorized
churning investigation sold approximately $15 million of cigarettes in an
18-month period. We further found that this investigation did not operate
within ATF’s framework for managing churning investigations, and that it
exceeded ATF’s statutory authority to conduct such investigations.
Additionally, we found that the confidential informant was allowed to keep
more than $4.9 million of the $5.2 million of gross profit generated from
sales of tobacco to criminal targets. According to ATF, the confidential
informant was allowed to keep that amount to cover his business expenses.
However, ATF did not ensure the reasonableness of the expenses claimed,
nor did ATF require the informant to provide adequate documentation to
support or justify those expenses and we found that the more than $4.9
million covered more than just the business expenses related to ATF activity,
including 100 percent of the confidential informant’s total business operating
overhead and more than $2.3 million in profit.

       With respect to ATF’s use of churning funds, our audit found that ATF
policies then in place, did not clearly establish the permissible uses of
churning proceeds, resulting in agents and supervisors making their own
determination about which expenditures to approve and leading to
inconsistencies in purchases made with churning proceeds. We also found a
material lack of oversight and controls to ensure that cash, cigarettes,
equipment, and other assets used in churning investigations were accurately
tracked, properly safeguarded, and protected from misuse. We identified
expenditures that appeared improper, unnecessary, and unreasonable, or
made in support of other unrelated ATF investigations. Some of the
expenses included:



                                     -ii-
   	 $193,000 to lease warehouse space owned by a confidential informant
      where the terms of the lease were not documented and the utilities
      were paid based on estimates one year in advance,

   	 $226,394 to rent between 3 and 12 vehicles on a monthly basis for
      more than a year where no documentation existed in the case file to
      justify the expense as reasonable and operationally necessary, and

   	 $30,000 (60 percent of the retail price) to lease a 2011 Chevrolet
      Tahoe for 1 year.

       In addition, due to inadequate documentation of cigarette inventories,
when we reviewed records from 20 of the 36 churning investigations, we
were unable to reconcile the disposition of 2.1 million of the more than
9.9 million cartons of cigarettes purchased for those 20 investigations. The
retail value of those 2.1 million cartons of cigarettes (or 420 million
cigarettes) was more than $127 million.2

      In our report, we make 1 recommendation to the Deputy Attorney
General and 16 recommendations to ATF to assist them in ensuring that
churning investigations are properly authorized and managed by the
Department, ATF Headquarters, and ATF field offices. During the course of
our audit, we met with ATF officials several times to discuss our concerns
with the churning program. ATF officials told us that ATF had begun to take
corrective actions to address many of the deficiencies we identified, including


       2
          After learning of our findings, ATF’s Deputy Director ordered ATF forensic auditors
to conduct a separate reconciliation of the disposition of cigarettes from two of the largest
cases in the OIG’s 20 case sample, as those two cases included the substantial majority of
the 2.1 million cartons of cigarettes we could not reconcile.

        The ATF told us that it reviewed every single Report of Investigation (ROI) from
these two cases to see if it referenced the disposition of cigarettes, even if the ROI was not
referenced in the case management log. The ATF stated that during this review, it found a
limited number of unexplained deposits associated with the two investigations and assumed
that those deposits were related to the sale of cigarettes and then estimated the number of
cigarettes that were likely sold given the amount of the deposit. Using these methods, the
ATF review arrived at a significantly smaller amount of unreconciled cigarettes than our
audit. The ATF review did find similar problems as the OIG has described in this report,
including “a clear lack of internal controls, oversight, training and policy to guide ATF agents
in these cases which resulted in a lack of uniformity in procedures, required documentation,
inventory controls, and accountability.”

       ATF describes its review in more detail in its response to this audit, which is attached
as Appendix II. However, for the reasons we outline in our response which is attached as
Appendix III, we do not believe the results of ATF’s review are comparable to the OIG
review.


                                              -iii-
an internal review of existing policies and procedures related to churning
investigations. As a result, ATF has revised its policies and procedures for
administering churning investigations to enhance the safeguards for
authorizing and managing churning investigations. Due to the sensitivity of
these investigations and the high risk that proceeds from otherwise illegal
business transactions may be misused, it is critically important that ATF and
the Department have adequate controls to ensure that churning
investigations are properly authorized and appropriately managed.




                                     -iv-
AUDIT OF THE BUREAU OF ALCOHOL, TOBACCO, FIREARMS 

   AND EXPLOSIVES’ USE OF INCOME-GENERATING,

              UNDERCOVER OPERATIONS


     
                                TABLE OF CONTENTS

INTRODUCTION ............................................................................... 1
 
  Prior Inspections and Reviews ............................................................ 4
 
    Office of the Inspector General Report .............................................. 4
 
    ATF’s Office of Professional Responsibility and Security Operations 

      Review ...................................................................................... 4
 
  Audit Approach ................................................................................ 5
 

FINDINGS AND RECOMMENDATIONS................................................ 7
 

  I. AUTHORIZATIONS FOR CHURNING INVESTIGATIONS............... 7
 
  Authorization Requests ..................................................................... 8
 
  Authorization Process ....................................................................... 9
 
  Review of the Authorization Request Process ..................................... 10
 
  Content of Requests for Churning Authority ....................................... 11
 
  Unauthorized Churning Investigation and Improper Co-Mingling of 

    Proceeds.................................................................................... 13
 
  Conclusion .................................................................................... 16
 
  Recommendations.......................................................................... 17
 


  II. 	HEADQUARTERS AND FIELD DIVISION OVERSIGHT AND 

    MANAGEMENT .......................................................................... 18
 
  ATF Headquarters Oversight and Management of Churning 

    Investigations ............................................................................ 19
 
    Churning Policy Guidance .............................................................. 20
 
    Inadequate Ongoing Monitoring of Churning Investigations ................ 22
 
  Field Division Management of Churning Investigations ......................... 25
 
    Controls Over Proceeds from Churning Investigations........................ 26
 
    Approval to Spend Churning Funds ................................................. 28
 
    Churning Fund Expenditures .......................................................... 29
 
    Controls Over Tobacco .................................................................. 38
 
    Operational Security ..................................................................... 43
 
  Conclusion .................................................................................... 45
 
  Recommendations.......................................................................... 46
 

STATEMENT ON INTERNAL CONTROLS............................................ 48
 

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 49
 

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY................ 50 


APPENDIX II - BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND

  EXPLOSIVES' RESPONSE TO THE DRAFT AUDIT REPORT ............. 54 


APPENDIX III -OFFICE OF THE INSPECTOR GENERAL 

  ANALYSIS AND SUMMARY OF ACTIONS NECESSARY 

  TO CLOSE THE REPORT ............................................................... 61

AUDIT OF THE BUREAU OF ALCOHOL, TOBACCO, FIREARMS 

   AND EXPLOSIVES’ USE OF INCOME-GENERATING,

             UNDERCOVER OPERATIONS3


                                  INTRODUCTION

      The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) is
responsible for the investigation and prevention of federal offenses involving
the unlawful use, manufacture, and possession of firearms and explosives,
acts of arson and bombings, and illegal trafficking of alcohol and tobacco
products. ATF uses undercover operations to detect and investigate crimes
for which it has primary jurisdiction. To conduct these undercover
operations, ATF at times engages in business transactions that might
normally be prohibited by federal law. In most cases, as required by law,
ATF deposits any proceeds from these illicit transactions into the Department
of the Treasury’s General Fund.

       However, in 2004, the existing law was amended to grant ATF the
same authority previously provided to the Federal Bureau of Investigation
(FBI) and the Drug Enforcement Administration (DEA) to use the proceeds of
its undercover operations to support its investigative work. Specifically, ATF
was authorized, in the context of undercover investigative operations that
are necessary for the detection and prosecution of crimes against the United
States, or for the collection of foreign intelligence or counterintelligence, to
use appropriated funds to lease or purchase real property, establish and
operate a proprietary business on a commercial basis, and deposit funds and
proceeds generated during the operation in a financial institution, and also to
use the proceeds of the operation to offset necessary and reasonable
expenses incurred in that operation.4 This authority, which ATF refers to as
“churning authority,” may be exercised only if the proposed activity is
certified by the Director of ATF and the Attorney General as necessary to the




       3
          During this audit, we identified certain issues requiring further investigation. We
referred those matters to the OIG’s Investigations Division, and put our audit on hold
pending such investigation. Subsequently, we were able to complete our audit and issue
this report.
         
        4
          See 28 U.S.C. § 533 note (explaining that Public Law 108–447, div. B, title I,
§ 116 extended to ATF the same authority previously granted to the Federal Bureau of
Investigation and Drug Enforcement Administration in Public Law 102-395 § 102(b) and in
effect pursuant to Public Law 104-132 § 815(d)).



                                             -1-

conduct of the undercover operation.5 ATF, the FBI, and DEA are the only
Department of Justice (Department) components with churning authority.

       After receiving this authority, ATF made a determination that it would
only be used in connection with complex, long-term undercover tobacco
diversion and alcohol diversion investigations. To date, however, ATF has
only used this authority to investigate tobacco diversion, which involves
efforts to evade state, local, or federal tobacco taxes.6

       The most common tobacco diversion scheme involves diverting
tobacco from a state or locality with low tobacco taxes to a state or locality
with high tobacco taxes and taking advantage of the disparity among the
states’ excise tax rates. Other tobacco diversion include selling counterfeit
tobacco products, selling tobacco products illegally over the internet, and
selling tobacco products without tax stamps or with counterfeit tax stamps.
According to ATF, counterfeit tobacco products are primarily manufactured in
China and Eastern Europe and packaged to look like brands well recognized
in the U.S., smuggled into the United States, and then sold through both
illegal and legitimate retail outlets. Counterfeit products use trade names
and packaging similar to legally manufactured products, and as a result,
legitimate outlets may not realize the products they are selling are
counterfeit products. ATF officials also stated that some Native American
tribes and reservations are using the internet to sell cigarettes without
paying the requisite federal and state excise taxes.

      According to ATF, state governments lose over $5 billion annually in
tax revenue as a result of tobacco diversion. ATF also told us that while
tobacco diversion is primarily a financial crime, these schemes have been
used to finance terrorist activities and criminal organizations.



       5
         Pursuant to 28 U.S.C. § 510, the Attorney General may also delegate certifying
authority to specified individuals as appropriate.

       6
          The Contraband Cigarette Trafficking Act (CCTA), enacted in 1978, gave ATF
primary jurisdiction over the interstate trafficking of cigarettes. The purpose of the CCTA
was to prevent any person from profiting by transporting and selling contraband cigarettes
in interstate commerce. Among other provisions, the CCTA generally prohibits any person
from shipping, transporting, receiving, selling, possessing, distributing, or purchasing more
than 10,000 cigarettes that bear no evidence of state tax payment in the state in which
cigarettes are found, if that state requires an indication of such payment of taxes to be
placed on the cigarette packaging or other container. See 18 U.S.C. § 2341 (defining
contraband cigarettes) and 18 U.S.C. § 2342 (prohibiting the trafficking of contraband
cigarettes). North Carolina, North Dakota, and South Carolina do not require tax stamps on
cigarettes and other tobacco products.



                                            -2-

       Between February 2006 and June 2011, ATF approved 35
investigations using this churning authority to investigate tobacco diversion.
In general, in these undercover investigations ATF purchased cigarettes from
manufacturers, and agents or informants then sold them to criminal targets
at or below wholesale cost. The targets allegedly would transport the
contraband cigarettes to a high-tax state, where they would be sold without
collecting the proper state and local taxes.

      Within ATF, the Alcohol and Tobacco Diversion Division (ATDD) has
had primary responsibility for overseeing and managing ATF’s churning
investigations. ATF restructured its operations in October 2011, and the
ATDD became the Alcohol and Tobacco Diversion Branch, within the Alcohol,
Tobacco, and Fire Enforcement Division, while retaining the same staff,
duties, and responsibilities.

       As described further in the Findings and Recommendations section of
this report, ATF may only use proceeds generated from these undercover
operations with the case-specific approval of the Chief of the Criminal
Division’s Organized Crime and Racketeering Section.

       To administer its churning authority, ATF has issued two memoranda
outlining its procedures for individual cases to request and manage churning
authority.

      In June 2005, ATF’s Assistant Director of Field Operations issued a
Churning Policy Memorandum (2005 Memorandum). This four-page
memorandum outlined ATF’s policies and procedures for the use of churning
authority. The 2005 Memorandum was never incorporated into ATF’s Orders
as a formal policy, but it remained in effect until April 2011.

      In April 2011, during our fieldwork for this audit, ATF issued a new
churning memorandum (2011 Memorandum) that superseded the 2005
Memorandum. The 2011 Memorandum is more comprehensive than the
2005 Memorandum and includes more stringent controls over churning
funds, with restrictions on the procurement and exchange of tobacco
between churning investigations, and varying levels of approval for use of
the funds based on dollar amounts requested. Similar to the 2005 Churning




                                     -3-

Memorandum, the 2011 Churning Memorandum was considered interim
policy and was not incorporated into ATF’s Orders.7

Prior Inspections and Reviews

Office of the Inspector General Report

       In a September 2009 report, the OIG examined ATF’s implementation
of its Alcohol and Tobacco Diversion Program as a deterrent to illegal sales
and smuggling of tobacco products.8 The OIG found that ATF lacked a
strong national program for diversion enforcement, resulting in an ad hoc
enforcement approach. Additionally, the review found that ATF lacked a
clear understanding of the scope of diversion activity across its field
divisions, and that Headquarters did not fully support the field divisions’
diversion investigations. The OIG therefore recommended that ATF take
appropriate steps to assess the scope of the diversion problem in each field
division and across the country in developing its enforcement strategy and
resource allocation plan; consider re-instituting the assignment of Program
Coordinator responsibilities to a Special Agent in each field division for
alcohol and tobacco diversion issues; and establish within the Alcohol and
Tobacco Diversion Division a formal point-of-contact position for the field
divisions. The OIG closed all three recommendations by November 2010
after ATF demonstrated that it had implemented the OIG’s suggested
improvements.

ATF’s Office of Professional Responsibility and Security Operations Review

      In March 2011, after we began our audit, ATF’s Office of Professional
Responsibility and Security Operations completed a review of all 33 ATF
investigations that were granted churning authority from 2005 to
February 25, 2011, to determine if ATF-authorized churning investigations
complied with ATF’s Churning Policy dated June 24, 2005, and to assess the



       7
         In April 2013, after our field work was complete, ATF issued a new Alcohol and
Tobacco Enforcement Programs Order. According to ATF, this order, ATF Order 3380.1, was
issued as a result of ATF’s internal process review and included changes implemented in
response to the preliminary findings we shared with ATF at a mid-audit briefing. Order
3380.1, replaced the 2011 Memorandum, the previous Tobacco Enforcement Program order
and several other memoranda, and is ATF’s current policy guidance for all alcohol and
tobacco investigations, including churning investigations.
        
       8
         U.S. Department of Justice Office of the Inspector General, The Bureau of Alcohol,
Tobacco, Firearms and Explosives’ Efforts to Prevent the Diversion of Tobacco, Evaluations
and Inspections Report I-2009-005 (September 2009).


                                           -4-

internal controls associated with that policy.9 The report’s findings included
the following:

   	 not all undercover bank accounts included a double signature,
          
   	 monetary transactions were not always documented in the case 

      management log,


   	 documentation of expenditures did not always identify the person who
      made the expenditure or what was purchased,

   	 the beginning tobacco inventory for some churning investigations
      could not be determined because initial purchases of cigarettes were
      obtained through Major Case Funding or agent cashier funds,

   	 no perpetual inventory of tobacco was maintained,

   	 records were not maintained to account for the destruction or 

      discarding of damaged inventory, 


   	 funds received were not always deposited into the undercover bank
      accounts in a timely manner,

   	 a complete accounting for all assets purchased with churning account
      funds was not available, and

   	 several assets purchased with churning funds could be viewed as
      supplementing ATF’s annual appropriation.

Audit Approach

       The objectives of this audit were to determine whether ATF:
(1) properly authorizes its income-generating, undercover operations;
(2) provides adequate management and oversight of its income-generating,
undercover investigations (churning investigations) at the headquarters and
field division levels.

      To accomplish these objectives, we interviewed ATF officials, including
the Assistant Director of Field Operations and the Chiefs of the Special
Operations Division, Resource Management Section, and Criminal


       9
          U.S. Department of Justice Bureau of Alcohol, Tobacco, Firearms and Explosives
Office of Professional Review and Security Operations – Inspection Division, Report of
Churning Account Review (March 16, 2011).


                                           -5-

Intelligence Division. We interviewed the entire staff of the Alcohol and
Tobacco Diversion Division (ATDD), as well as Special Agents, Group
Supervisors, Assistant Special Agents in Charge (ASAC), and Special Agents
in Charge (SAC). We also interviewed staff within the Department’s Criminal
Division, including the Chief of the Organized Crime and Racketeering
Section, and the Policy Legal Counsel to the Chief of the Asset Forfeiture
Section.

       In addition, we reviewed all 35 of ATF’s requests for churning authority
submitted between February 2006 and June 2011. We also performed audit
work analyzing the field division oversight of churning investigations at eight
ATF field divisions: (1) Atlanta, Georgia; (2) Baltimore, Maryland;
(3) Charlotte, North Carolina; (4) Detroit, Michigan; (5) Kansas City,
Missouri; (6) Newark, New Jersey; (7) Philadelphia, Pennsylvania; and
(8) Washington, D.C. At these 8 field divisions and some of their associated
field offices, we reviewed and analyzed case files from 20 of the 35
investigations granted churning authority between March 2006 and January
2011. In addition, we identified and reviewed one case file for an
investigation that had not been granted churning authority but nevertheless
operated as a churning case.

      Our audit resulted in two findings. Finding I presents weaknesses in
ATF’s process for approving income-generating, undercover operations.
Finding II identifies deficiencies in oversight and management at the
headquarters level and within ATF’s field divisions. Further information on
the audit objectives, scope, and methodology is contained in Appendix I.




                                      -6-

              FINDINGS AND RECOMMENDATIONS

I.   AUTHORIZATIONS FOR CHURNING INVESTIGATIONS

     Our audit identified a total of 36 ATF churning investigations
     during our audit period. Thirty-five of the 36 investigations
     were initiated with requests for churning authority that were
     approved by ATF and the Department. However, we found
     that none of these 35 requests were reviewed and approved
     by ATF’s Undercover Review Committee, as required by ATF
     policy. In addition, 33 of these 35 investigations did not
     comply with other ATF requirements governing requests for
     and approval of churning authority.

     We found that one of the 36 churning investigations was
     conducted despite the failure to submit a request for churning
     authority to either ATF or the Department. In this
     investigation, we found that the confidential informant was
     allowed to keep more than $4.9 million of the $5.2 million of
     gross profit generated from sales of tobacco to criminal
     targets. According to ATF, the confidential informant was
     allowed to keep that amount to cover his business expenses.
     However, ATF did not ensure the reasonableness of the
     expenses claimed nor did ATF require the informant to
     provide adequate documentation to support or justify those
     expenses, and we found that the more than $4.9 million
     covered more than just the business expenses related to ATF
     activity, including 100 percent of the confidential informant’s
     total business operating overhead and more than $2.3 million
     in profit.

     We also found that ATF’s policies and procedures lacked
     specific criteria to determine which cases should be granted
     such churning authority. We found that the lack of review by
     the ATF’s Undercover Review Committee, as well as the
     absence of criteria for approving requests for churning
     authority, resulted in inconsistencies in the nature and types
     of tobacco investigations approved for churning authority.




                                    -7-

Authorization Requests

      The Department has not issued any policies or guidance describing
how the FBI, DEA, or ATF should implement the ability to use income
generated from undercover investigations, so each of the three agencies
administers this authority according to its own policies and directives,
subject to the Department’s case-by-case approval. At the time of our
audit, ATF’s policy for reviewing and approving requests for churning
authority was contained in a 2005 Churning Memorandum
(2005 Memorandum).10 This memorandum advised ATF agents and
supervisors that the use of churning authority was intended primarily for
complex, long-term undercover investigations. The memorandum also
noted that churning investigations are considered sensitive, as described in
ATF Order 3250.1A, Informant Use and Undercover Operations (Order
3250.1A), and therefore, churning investigations must comply with the
provisions regarding sensitive operations contained in Order 3250.1A.11




       10
          ATF issued an interim churning policy in April 2011. However, no requests for
churning authority were submitted between April 2011 and the end of our audit’s fieldwork
in December 2011. As a result, our analysis is entirely based on compliance with the 2005
Churning Memorandum.
       11
           ATF Order 3250.1A does not define sensitive circumstances. However, ATF Order
3250.1B identifies the following types of investigations and tactics as categorically sensitive:
storefront operations; outlaw motorcycle or other recognized organized groups/gangs with
regional, national and/or international status; participation in otherwise illegal activity by
undercover agents; and possible criminal conduct by any elected or appointed official.


                                              -8-

                                 Exhibit 1 

                   ATF Churning Requests by Calendar Year 

                      February 2006 through June 2011 


 12


 10


  8


  6


  4


  2


  0
          2006         2007         2008           2009        2010          2011

       Source: DIG analysis of ATF data

Authorization Process

       According to the 2005 Memorandum, requests for churning authority
requ ired approval from the appropriate ATF Deputy Assistant Director for
Field Operations, the ATF Undercover Review Committee, and a Deputy
Assistant Attorney General ( DAAG) in the Department's Criminal Division.
According to Order 3250.1A, applications for approval to conduct undercover
operations involving "sensitive circumstances" were required to be reviewed
by the Chief of the Special Operations Division. 12 Upon the Chief's favorable
rev iew, the application was to be reviewed by ATF's Undercover Review
Committee, which was to examine the application to determine whether
adequate measures had been taken to minimize the incidence of "sensitive
circumstances" involved in the proposed undercover operation and to
" reduce the r isks of harm and intrusion that are created by such
circumstances."n After its review, the Undercover Review Committee was

       12 The Special Operations Div ision is responsible for mu ltiple programs that support
ATF agents in the fie ld, incl uding undercover operations security, specia lized deployments,
and technical operations.

       13 The Undercover Review Comm ittee is chaired by the appropriate Deputy Assistant
Director of Field Operations and includes the Chief of the Special Operations Div ision , the
Chief of the appropriate operationa l divisio n, a representative from the Office of Chief
Counsel , and a representative from the Department of Justice 's Criminal Division.


                                             -9­
required to submit the application to the ATF Assistant Director (or his or her
designee) with a recommendation to approve or disapprove the request. If
the Undercover Review Committee approved the request, it was directed to
include a brief written statement describing why the investigation merits
approval in light of the sensitive circumstances.

Review of the Authorization Request Process

      We found that, between February 2006 and June 2011, 35 requests
for authorization had been submitted by ATF Special Agents and approved
by ATF’s Deputy Assistant Director for Field Operations and the Chief of the
Criminal Division’s Organized Crime and Racketeering Section (OCRS), but
that none of the requests had received all of the intermediate approvals
required by ATF guidance. Specifically, while we determined that all of the
authorization requests were approved by the respective SACs, the Chief of
the ATDD, and the Deputy Assistant Director before being submitted to the
Chief of OCRS for final approval, we found no evidence that the
authorization requests were reviewed by the Chief of the Special Operations
Division or the Undercover Review Committee. Further, most ATF officials
we interviewed told us that they did not know that ATF had an Undercover
Review Committee, and ATF’s Chief Counsel told us that ATF’s Undercover
Review Committee did not meet between February 2005 and January 2012.

      While the 2005 Memorandum references approval by a Criminal
Division DAAG, the Attorney General has designated the Chief of the
Criminal Division’s Organized Crime and Racketeering Section (OCRS) as the
authorizing official for all of the Department’s income-generating undercover
operations, including ATF. According to the Chief of OCRS, he and an ATF
Program Officer met to discuss the details of each request, and he signed
the request at the end of the discussion. The Chief stated there was no
Department policy guidance for reviewing and approving churning requests –
or similar requests from the FBI and the DEA – and that he relied on his
years of experience participating in the FBI’s Undercover Review Committee
and reviewing similar requests from the FBI to evaluate churning requests
from ATF. When evaluating a request, he said he considers factors such as
the prosecutorial merit of the investigation, whether the targets identified
are a part of the same criminal conspiracy, and the degree to which the
investigation relies on a confidential informant. He added that the statute
for churning authority is quite vague and that there is no case law to refer to
because the statute has never been tested.




                                     -10-

Content of Requests for Churning Authority

      We examined all 35 requests for authorization to determine whether
each contained the required information outlined in the 2005 Memorandum.
According to the 2005 Memorandum, the request was required to include:
(1) the background of the investigation; (2) a thorough identification of the
suspect; (3) the current status of the investigation; and (4) the proposed
investigative activity and technique that will be used to produce the
proceeds from the operation.

       In addition, the 2005 Memorandum required churning authorization
requests to adhere to the requirements outlined in Order 3250.1A,
paragraph 95(c), which requires that applications for approval of
investigations involving sensitive circumstances include: (1) arrest records
of criminal targets, (2) a statement of the time period of the investigation,
(3) a description of any inducement techniques employed to ensure that
innocent parties will be protected against entrapment, (4) a statement of
proposed expenses, (5) a statement of “circumstances expected to occur”
and description of why the operation merits approval, and (6) a letter from a
U.S. Attorney documenting the U.S. Attorney’s approval of the investigative
tactic employed as well as an agreement to prosecute any meritorious case
that develops.14

      We determined that 33 of the 35 requests did not contain all of the
information required by the 2005 Memorandum. Specifically, 19 requests
did not disclose the arrest records of criminal targets, 25 did not propose the
time period of the investigation, and 2 did not provide an inducement
description. None of the 33 requests included a letter from the U.S.
Attorney documenting approval and agreement to prosecute the case.

       Additionally, 9 of the 35 requests for churning authority did not
explicitly or thoroughly identify suspects to be investigated. For example,
approval was granted for two investigations that targeted geographic areas
as opposed to individual suspects, and for an investigation targeting
“criminal networks” in the field office’s territory rather than specific
individuals or organizations.

      According to agents we interviewed, some of these requests were
intentionally broad so that the agent would have the flexibility to pursue
suspects that had not yet been identified at the time of the request. For
      14
           ATF Order 3250.1A, Informant Use and Undercover Operations, defines
inducement as an element of entrapment. Entrapment occurs when the government
originates the idea of a crime and then induces another person to engage in conduct
constituting such a crime when the other person is not disposed to do so.


                                          -11-

example, one request we reviewed identified potential tobacco trafficking
schemes as the target of the investigation rather than particular suspects.
The Special Agent who submitted the request explained that he intentionally
did not identify any suspects in his request because his goal was to include
every possible contingency, allowing him to pursue a broad scope of
potential investigations. Both ATF and the Department approved this
request.

       In addition, although not explicitly described in policy guidance,
several ATF officials, as well as the Chief of OCRS, told us that the suspects
identified in requests for churning authority must be part of the same
criminal conspiracy. Nevertheless, in at least six requests we reviewed,
churning authority was granted to investigations that identified multiple
suspects that were not part of the same criminal network or conspiracy.

      We also found that neither ATF nor the Department – which is also
responsible for reviewing and approving similar requests from the FBI and
the DEA – had issued any formal criteria against which churning requests
should be evaluated. Our review of the 2005 Memorandum identified no
guidance about what criteria should be considered when evaluating requests,
and ATF and Department officials, including the Chief of OCRS who is
responsible for approving these requests on behalf of the Department,
confirmed that no other such guidance exists.

      In our judgment, the controls for approving churning investigations in
the 2005 Memorandum were inadequate. For example, the lack of
specificity in the targets that were intended to be investigated allowed for
several different investigations to be operated under the umbrella of a single
investigation. By allowing multiple unrelated investigations to operate under
one churning authorization, ATF undermined its ability to appropriately
monitor the progress of its churning investigations, which are inherently
sensitive due to the potential for fraud and abuse. This practice also
increased the risk that churning proceeds could be used for purposes that
exceed the statutory authorization, which limits the use of churning funds to
offsetting necessary and reasonable expenses incurred in the same
undercover operation. In addition, the lack of formal criteria against which
churning requests were to be evaluated similarly undermined ATF’s oversight
of churning operations by creating the risk of inconsistent or inappropriate
approvals.

      In April 2011, ATF updated its policy guidance to include more
stringent controls for churning investigations, including requiring a new
churning authorization and new investigation number whenever criminal
targets that were not part of the initial conspiracy are added to the scope of


                                     -12-

the investigation. However, the guidance did not establish criteria for ATF
officials to use to determine which cases should initially be granted churning
authority. It also removed the requirement for investigations to be reviewed
by an ATF Undercover Review Committee, as required by ATF Order
3250.1A, Informant Use and Undercover Operations, paragraph 95(c).15

Unauthorized Churning Investigation and Improper Co-Mingling of
Proceeds

       During the course of our audit, we also identified one tobacco
investigation, separate from the 35 approved investigations discussed
above, that had operated without proper churning authority and had its
proceeds deposited into another churning operation’s accounts. The name
of this operation was the target of the investigation, so we will refer to this
investigation as “Operation Alpha”.

       Over an 18 month period beginning in 2009, Operation Alpha used an
ATF confidential informant to sell at least $14.9 million worth of cigarettes
(more than 900,000 cartons, or 180 million cigarettes) to the targets of an
investigation into tax avoidance.16 The cigarettes were ordered by an ATF
case agent through ATF Headquarters, and then shipped to and paid for by
the confidential informant, who was a tobacco distributor. The confidential
informant then sold the cigarettes to the targets of Operation Alpha and
provided the net profits from these sales to ATF. The net profits were
deposited by ATF into the undercover bank account of an unrelated churning
investigation that had been authorized, which we will refer to as “Operation
Beta.”17 Operation Alpha and Operation Beta were entirely separate
investigations with separate case numbers and separate targets. However,
Operation Beta was conducted by a Special Agent in another ATF field
division who had been responsible for signing up the ATF confidential
informant used in Operation Alpha.




         15
           ATF’s Order 3380.1, issued in April 2013, once again includes a requirement that
all churning investigations be approved by an ATF Undercover Review Committee.
         16
          A carton of cigarettes contains 10 packages of cigarettes, and each package
contains 20 cigarettes.
         17
              Net profits are the remainder of revenue less the cost of goods sold and indirect
costs.


                                               -13-

      The depositing of proceeds from Operation Alpha into the accounts of
Operation Beta violated the statutory requirement that churning funds
should only be used to fund the same investigation.18 Additionally,
according to ATF policy, each investigation is required to have its own
churning authority in order to deposit the proceeds from illicit transactions
into an account other than the Treasury’s general fund. While ATF and the
Department had granted churning authority to Operation Beta, no such
authority had been requested or approved for Operation Alpha.19 Operation
Alpha thus failed to comply with the limits and safeguards of the statutory
authority governing churning investigations, and it operated outside ATF’s
normal framework for managing churning investigations.

      This failure to follow legal requirements and internal procedures
contributed to the significant irregularities we uncovered during our review
of Operation Alpha. For example, we were unable to verify how many
cigarettes were sold during Operation Alpha because neither the Report of
Investigation (ROI) nor ATF’s management log included either the total
amount of tobacco sold by the confidential informant during each undercover
transaction or the dollar amounts associated with each of the related
transactions. Based on the documentation provided by the case agent for
Operation Alpha, we also were unable to verify that all of the sales were
appropriately supervised by ATF personnel.

       Moreover, the records provided by the confidential informant to ATF
indicated that ATF did not properly account for the confidential informant’s
reported business expenses during Operation Alpha. According to ATF, the
confidential informant was allowed to keep more than $4.9 million to cover
his business expenses. However, we found that the more than $4.9 million
covered more than just the business expenses related to ATF activity,
including 100 percent of the confidential informant’s total business operating
overhead. In addition, the confidential informant attributed about $2.37
million to “commissions” for the sales that he made.

      In an interview with the OIG, the confidential informant stated that the
“commissions” were not actually expenses, but profit that he retained.
When we reviewed the information that the confidential informant submitted
to ATF, it showed that the total proceeds from the sale of cigarettes by the

       18
         See Public Law 102-395 § 102(b)(1)(D), which was applied to ATF in Public Law
108–447, div. B, title I, § 116 as described at 28 U.S.C. § 533 note.
       19
          According to the case agent of Operation Alpha, he never applied for or opened an
undercover bank account for the case because the Chief of ATDD had orally authorized him
to use the Operation Beta’s bank account. In statements to the OIG, the Chief of ATDD
denied authorizing Operation Alpha’s use of Operation Beta’s bank account.


                                          -14-

informant was $14.9 million, that the cost of goods sold was $9.7 million,
and that the informant’s reported business expenses (including his
commissions) were nearly $5 million. As a result, the net profit to ATF was
only $245,822, as shown in Exhibit 2.

     Exhibit 2 - Operation Alpha Proceeds, Expenses, and Profits

                As Reported by Confidential Informant, 

                  May 2009 Through November 2010 


                    Proceeds                  $14,908,218
                  Cost of Goods               $ 9,703,448
                   Gross Profit               $ 5,204,770
                    Expenses                  $ 2,586,688
                  Commissions                 $ 2,372,260
                 Net Profit to ATF            $   245,822
            Source: OIG Analysis

       While the confidential informant was allowed to keep more than $4.9
million of the total $5.2 million of gross profit from the sales of tobacco to
criminal targets in Operation Alpha, neither the case agent for Operation
Alpha nor the case agent for Operation Beta was able to provide us with
documentation showing that ATF had entered into an agreement to
reimburse the confidential informant for these expenses. . As a result, ATF
did not ensure the reasonableness of the expenses claimed nor did ATF
require the informant to provide adequate documentation to support or
justify those expenses. These irregularities create the risk that ATF may
have allowed the confidential informant to retain proceeds of illicit
transactions to which he was not entitled.

      ATF also failed to account properly for the cigarettes it purchased
during Operation Alpha. We found that ATF did not maintain records
showing how many cigarettes were sold or how much revenue was
generated by the sale of contraband cigarettes during Operation Alpha. ATF
did, however, maintain records on how many cigarettes it purchased from
wholesalers to support Operation Alpha. According to these records,
between May 2009 and November 2010, the case agent for Operation Alpha
ordered a total of 674,820 cartons of tobacco at a cost of $8 million. Yet,
based on our analysis of the records provided by the confidential informant,
during the same period the informant reported that he sold a total of
904,638 cartons of cigarettes at a cost of $9,703,448. We were unable to
reconcile the difference of 229,818 cartons and $1.7 million between the two
sets of records. Further, according to records of orders maintained at ATF
Headquarters, between December 2010 and February 2011, the case agent
for Operation Alpha ordered an additional 140,160 cartons of cigarettes at a


                                     -15-

cost of approximately $1.7 million, yet ATF was unable to account for how
those cigarettes were used.

Conclusion

       Our review of the 35 ATF investigations that received churning
authority found that ATF did not adhere to its policies for authorizing
churning investigations. Specifically, although the 2005 Memorandum
required that churning investigation authorizations be reviewed by ATF’s
Undercover Review Committee before being submitted to the Department for
final approval, we found no evidence that ATF’s Undercover Review
Committee reviewed any of the 35 churning requests.

       The 2005 Memorandum also required churning authorization requests
to include specific information about the investigation, such as a thorough
identification of the suspect and a letter from the U.S. Attorney documenting
the U.S. Attorney’s approval of the investigative tactic employed as well as
an agreement to prosecute any meritorious case that develops. However,
we found that 33 of the 35 requests did not contain all of the required
information, including 9 requests that did not explicitly or thoroughly identify
suspects to be investigated.

       Additionally, we found one investigation, Operation Alpha, that
operated without requesting or receiving prior approval from either ATF or
the Department. We also found that Operation Alpha failed to follow the
statutory requirement that churning funds should only be used to fund the
same investigation. Additionally, we found that this operation had
significant irregularities, including the failure to account properly for
substantial amounts of cigarettes and money. In light of Operation Alpha,
we have concerns with ATF’s ability to comply with the provisions of
28 U.S.C. § 533 that grant it the authority to conduct churning
investigations.

       While ATF updated its policy guidance in April 2011 to include more
stringent controls over the authorization of churning investigations, the 2011
guidance, like the 2005 Memorandum, did not establish criteria for ATF
officials to use to determine which cases should initially be granted churning
authority. In addition, we are concerned that the 2011 guidance did not
include requirements for investigations to be reviewed by an ATF Undercover
Review Committee, as required by ATF Order 3250.1A, Informant Use and
Undercover Operations, paragraph 95(c) or a letter from a U.S. Attorney
documenting the U.S. Attorney’s approval of the investigative tactic
employed.



                                     -16-

Recommendations

We recommend that the Deputy Attorney General:

     1.	   Consider implementing Department-wide requirements for
           authorizing churning requests to ensure that such requests are
           handled consistently across Department components and that
           best practices are employed by all Department components.

We recommend that ATF:

     2.	   Consider amending the 2011 Churning Memorandum to add the
           requirement of consulting with the relevant U.S. Attorney before
           employing the investigative tactic.

     3.	   Establish procedures to ensure that requests for churning
           authority are approved according to existing ATF policies,
           including review by ATF’s Undercover Review Committee.

     4.	   Implement effective policies and procedures to ensure targets of
           income-generating undercover investigations are specifically
           identified prior to granting the investigation churning authority.

     5.	   Develop and implement criteria to be used by ATF officials
           responsible for authorizing churning investigations to determine
           whether a churning request should be approved.

     6.	   Develop and implement effective policies and procedures to
           ensure unauthorized churning investigations do not occur.
           These policies and procedures could include periodic reviews of
           all investigations where income is generated to ensure such
           income is not used unless appropriately authorized. 




                                    -17-

II.	   HEADQUARTERS AND FIELD DIVISION OVERSIGHT AND
       MANAGEMENT


       We found that ATF lacked comprehensive guidelines, policies,
       and procedures needed for its Headquarters and field
       divisions to effectively oversee and manage ATF’s churning
       investigations. ATF did not have policies in place to establish
       how funds developed through churning cases could be
       utilized, leading to significant inconsistencies in the way
       churning investigations were managed. In the absence of
       clear guidelines, ATF Special Agents and supervisors in
       Headquarters and in the field made their own determinations
       about whether given expenditures were allowed.

       We also found that ATF did not have mechanisms in place to
       adequately track tobacco that was bought, sold, traded, given
       away, and destroyed by its churning operations. As a result,
       when we reviewed 20 of the 36 churning investigations, we
       were unable to independently reconcile the disposition of
       2.1 million of the more than 9.9 million cartons of cigarettes
       purchased for those 20 investigations. The retail value of
       those 2.1 million cartons of cigarettes (or 420 million
       cigarettes) was more than $127 million. In our judgment,
       ATF’s lack of controls over a potential black market
       commodity that is highly vulnerable to fraud is very troubling,
       and raises the concern that ATF may not have fully complied
       with 28 U.S.C. § 533, as amended, by not ensuring case
       revenues and purchases were appropriately utilized.

       Additionally, we found that the investigations we reviewed did
       not effectively track non-tobacco purchases, such as GPS
       devices, cell phones, tablet computers, surveillance
       equipment, and other electronic devices. Other significant
       weaknesses we identified included potential compromises of
       operational security, lack of proper authorization for
       expenses, delays in depositing proceeds, and failures to
       document investigative activities.




                                      -18-

ATF Headquarters Oversight and Management of Churning
Investigations

      At the time of our audit, the ATDD was responsible for the
management of ATF’s tobacco diversion program, including program
guidance, tobacco procurement, intelligence support, field office support,
and coordination with other law enforcement agencies. However, in October
2011, ATF restructured its field operations and the ATDD became the Alcohol
and Tobacco Diversion Branch within the Alcohol, Tobacco, and Fire
Enforcement Division. The Alcohol and Tobacco Diversion Branch has the
same roles and responsibilities the ATDD had. This report describes ATF’s
operations and organization as they existed during the time of our audit.
We interviewed the entire staff at the ATDD in order to determine what
program guidance, policies, and procedures had been established to manage
and oversee churning investigations.

       During our audit period, the Chief of the ATDD was responsible for
oversight, planning, and coordination of the division’s programs, supported
by a Project Officer, three Program Managers, and eight program support
staff.20 The Project Officer’s responsibilities included monitoring,
coordination, and support of ATF field enforcement activities. The Program
Managers’ responsibilities included serving as policy developers as well as
monitoring program progress. The roles and responsibilities of the ATDD
program support personnel varied and included intelligence analysis, tobacco
procurement, training, financial reporting, and industry operations.

      Despite the ATDD staff’s broad responsibilities, based on our
interviews we determined that, in practice, the ATDD provided limited
support to the churning investigations being conducted by the field divisions
and field offices. Specifically, we found that the ATDD staff lacked training
and expertise to assist tobacco investigations in the field. For example,
none of the Special Agents assigned to the ATDD (Chief, Project Officer, and
Program Managers) had ever conducted a tobacco diversion investigation.

      In addition, the ATDD staff experienced a high rate of turnover during
the audit period and Special Agents with whom we spoke told us the
turnover contributed to the division’s inability to adequately support
churning investigations in the field. We found that from February 2011 to
March 2012, the ATDD experienced turnover in the Chief, Project Officer,

      20
           The Chief of the ATDD departed the position in March 2011 to take a management
position in an ATF field office. An Acting Chief filled the position until October 2011, at
which time the ATDD was reorganized as the Alcohol and Tobacco Diversion Branch within
the Alcohol, Tobacco and Fire Enforcement Division. A permanent chief was assigned to the
Alcohol and Tobacco Diversion Branch in May 2013.


                                          -19-

and Program Manager positions, resulting in a turnover rate of
approximately 38 percent. Moreover, at no point during this same period
did the ATDD have a permanent Chief. Although some level of staff turnover
is to be expected, we believe frequent changes in the Special Agents
assigned to ATDD and the delay in filling the Chief position likely contributed
to the lack of adequate oversight and management.

      Also as a result of this turnover, Special Agents in the field involved in
churning investigations told us that they often relied on each other’s
personal experience rather than the ATDD for official guidance and support.
Many Special Agents we interviewed said that the ATDD generally lacked
awareness of the investigative activities in the field, and that they therefore
rarely communicated with the ATDD about the details of their cases.
However, several of the Special Agents we interviewed noted that one ATDD
Program Analyst was extremely knowledgeable and helpful.

Churning Policy Guidance

      In July 2005, about 7 months after ATF received churning authority,
ATF’s Assistant Director for Field Operations issued interim policy in the 2005
Memorandum that outlined ATF’s policies and procedures for the use of its
new churning authority. The 2005 Memorandum established, among other
things, the following requirements:

   	 undercover bank accounts for churning investigations must have 

      double signature authority to deposit and withdraw funds, 


   	 each monetary transaction for a churning investigation must be 

      documented in the management log in N-Force,21


   	 churned funds cannot be co-mingled with any other monies in one
      undercover bank account, and

   	 a first-line supervisor must reconcile the account at the end of each
      month and forward the report to ATF Headquarters.

      However, we found that the 2005 Memorandum did not contain
detailed operating procedures, was not supplemented by other guidance
specific to churning investigations, and was never incorporated into ATF’s
Orders as a formal policy, resulting in inconsistent oversight and
management of ATF’s churning investigations.

       21
          N-Force is ATF’s official case file of record for documenting investigative activity
and information, creating reports, tracking investigative leads, and linking data.


                                             -20-

       Specifically, our review of the memorandum found that it provided
very little guidance about what types of expenditures could or could not be
made with churning funds. The only specifics about allowable expenditures
were made within the context of a hypothetical tobacco investigation where
the memorandum stated, “The expenses would include, among other things,
the purchase of additional cigarettes to further the investigation, the
payment of transport services, or the storage of the cigarettes.” Because
the 2005 Memorandum only addressed these three expenditures specifically,
Special Agents told us that, prior to submitting a request to use churning
funds, they often consulted with each other, their supervisors, or the Chief
of ATDD, for guidance on whether a purchase could be made using churning
funds. The formal approval process is discussed in greater detail below.

       Our findings were consistent with statements made to us by many
Special Agents, supervisors, and ATDD staff, who described the 2005
Memorandum as vague and lacking specifics about policies and procedures
for the use of churning funds. Several ATF officials also told us that in the
absence of clear guidelines, some ATF Special Agents and supervisors made
their own determinations about the allowability of particular expenditures
instead of seeking input from the ATDD, and one field division developed its
own informal policies and procedures that were communicated to the Special
Agents within that office. We also found that ATDD and the field offices
occasionally came to different conclusions about specific expenses. For
example, one field office spent $8,990 to purchase a forklift to move tobacco
on and off trucks, but once the purchase had been made, ATF Headquarters
informed the field office that the expenditure was unallowable and that the
field office should have leased the forklift instead.

       In addition, we found that ATF did not amend other policies relevant to
churning investigations in 2005 to reflect the fact that it had received
churning authority. For example, ATF Order 3250.1A, Informant Use and
Undercover Operations, required that all proceeds from investigative
activities be returned to the General Fund of the Treasury, even though
ATF’s churning authority specifically allowed ATF to deposit churning funds
into a bank account.22 Similarly, and as discussed in greater detail below,
ATF also did not update Order 3400.1B, Property Taken Into Bureau
Custody, to address how agents should receive, process, and store churning
proceeds.


      22
         In November 2011, after we had completed our audit fieldwork, ATF Order
3250.1A, Informant Use and Undercover Operations was superseded by ATF Order 3250.1B,
Undercover Operations, and ATF Order 3252.1, Confidential Informant Usage. ATF Order
3250.1B includes guidance specific to churning investigations.


                                        -21-

       In April 2011, during our fieldwork for this audit, ATF issued an
updated memorandum (2011 Memorandum) that superseded the 2005
Memorandum. The 2011 Memorandum is more comprehensive than its four-
page predecessor and includes 14 categories of policies and procedures, as
well as more detailed guidance on the permissible uses of churning funds. It
also includes more stringent controls over churning funds, including varying
levels of approval for use of the funds based on the dollar amounts
requested, places restrictions on the procurement of tobacco and exchange
of tobacco between churning investigations, and includes guidance regarding
how to dispose of property acquired with churning funds once an
investigation has ended, including the requirement that all assets must be
turned over to the General Services Administration.

      However, our review of the 2011 Memorandum identified several
shortcomings. For example, while the 2011 Memorandum includes an
inventory requirement, it does not require that any tobacco that was
purchased and on-hand prior to the receipt of churning authority be included
in the starting inventory. The amount of tobacco ordered for an
investigation before it receives churning authority can be significant: one
case we reviewed received $1.5 million in cigarettes before it became a
churning investigation. By not having inventory controls before and after an
investigation obtains churning authority, ATF undermines its ability to
adequately monitor and track the tobacco bought and used in its
investigations.

      Additionally, although the 2011 policy guidance includes restrictions on
the procurement of tobacco, this restriction only applies to tobacco
purchased through ATF Headquarters, not to tobacco purchased by other
means, such as directly from distributors.

     As was the case with the 2005 Memorandum, the 2011 Memorandum
was considered interim policy and was not incorporated into ATF’s Orders.

      In May 2013, ATF provided us with its new policy guidance governing
churning investigations, ATF Order 3380.1, issued in April 2013. This Order
was issued as a result of ATF’s internal process review and included changes
implemented in response to the preliminary findings we shared with ATF at a
mid-audit briefing.

Inadequate Ongoing Monitoring of Churning Investigations

      As discussed in Finding I above, after an investigation has received
ATF internal approval for churning authority, it must obtain approval from
the Department. According to the Chief of OCRS, while the final approval


                                    -22-

rests with the Department, the Department does not continue to monitor or
oversee churning investigations once it authorizes them.

       In comparison, the Chief of OCRS told us that the Department
participates in ongoing oversight activities for FBI churning investigations.
Specifically, we found that the FBI convenes an undercover review
committee made up of both Department and FBI officials to manage
churning cases. The committee meets every 6 months to review significant
FBI undercover investigations. The Chief of OCRS told us that he believed
there should be a similar process for ATF’s churning investigations.23

      Instead, ATF Headquarters is solely responsible for the oversight of
churning investigations. Their two primary tools for doing so during our
audit period were Reports of Investigation (ROI) and the N-Force case
management log. As described below, we found deficiencies in the ATF’s use
of both of these tools.

      ROIs are ATF’s primary tool for reporting investigative matters. ROIs
are to provide timely, detailed investigative activity on cases including, but
not limited to, interviews, undercover contacts, the collection of evidence
and records, and the sale or trade of undercover merchandise, and are
stored in N-Force. ROIs are intended to provide accurate documentation of
case investigative history and to allow for management review of cases.

       The 2005 Memorandum required that an ROI be created in N-Force for
each investigative activity where churned funds were used, including
instances where churned funds were used to purchase items for subsequent
sale to a target of investigation. We found a wide disparity in the level of
detail included in the ROIs for the 20 churning operations we reviewed. We
also found that churning case ROIs were not always prepared as required by
the 2005 Memorandum, including instances where the purchases and sales
of tobacco products were not recorded in an ROI. The failure to prepare
detailed ROIs in accordance with the 2005 Memorandum contributed to the
OIG’s inability to independently reconcile all of the tobacco bought, sold,
traded, given away, and destroyed in the 20 ATF churning investigations we
reviewed.

      The N-Force case management log is to be used by Special Agents to
track administrative actions during a case to document discussions,
meetings, and contact with others about the investigation, and to update the



      23
         According to Department officials, beginning in December 2012, ATF’s Undercover
Review Committee includes US Attorney participation.


                                         -23-

case with other information that is not appropriate for an ROI.24 Case
management logs are also intended to allow for management review of
expenses and proceeds. As such, the 2005 Memorandum directed Special
Agents to document each expense and all proceeds in the case management
log. These requirements were changed in the 2011 Memorandum, which
only requires that proceeds, not expenses, be documented in the case
management log.

      Our review found none of the 20 churning investigations we
reviewed – all of which were governed for at least some period of time by
the 2005 Memorandum – had documented expenses in the case
management log.

       In addition, although we found that Special Agents generally
documented the proceeds in the case management log as required by both
the 2005 and the 2011 Memoranda, we also found that the level of detail
about those expenses that we were able to access, using the case
management log, varied significantly. For some investigations we reviewed,
the case management log entries documenting proceeds included a
reference to the corresponding ROI. The referenced ROI listed the specific
activity related to the deposit such as the quantity, brand, and price of the
cigarettes sold. In contrast, several investigations we reviewed documented
only the total amount deposited in the case management log. As a result,
we were unable to independently match all of the deposits recorded in the
case management log to a corresponding ROI. Although neither the 2005
nor the 2011 Memoranda require references to corresponding ROIs in the
case management log, the lack of references contributed to our inability to
independently reconcile the amount of tobacco bought, sold, traded, given
away, and destroyed in all of the investigations we reviewed.

      In July 2011, ATF established the Monitored Case Program to ensure
close coordination between ATF Headquarters and field offices for its most
sensitive investigations, including all churning investigations.25 For such
investigations, the Monitored Case Program requires, among other things:

   	 field divisions to prepare a briefing paper for Deputy Assistant Director
      review and approval at the time the investigation becomes a
      monitored case;


       24	
             ATF Order 3111.1, Use of N-Force.
       25
           In addition to churning investigations, the Monitored Case Program applies to
investigations that have a documented international crime nexus, a widespread critical
impact on public safety, or that involve long-term undercover operations.


                                            -24-

   	 the relevant SAC to brief the Deputy Assistant Director each month on
      the status of the investigation; and

   	 the relevant SAC to telephone the Deputy Assistant Director when a
      significant activity or advancement in the investigation occurs, when
      the case changes its strategy significantly, or when there is an
      unanticipated change to the scope of the investigation.

      Because ATF’s Monitored Case Program took effect near the end of our
audit fieldwork, we did not review its implementation. However, we
examined the policy, and based on our review of the briefing requirements,
we believe the required form for briefing Headquarters does not include
information vital to monitoring a churning investigation, such as the amount
of churning funds expended to date, or the amount of tobacco procured or
sold to date. As a result, the information ATF Headquarters officials receive
about churning investigations still may not provide them the information
necessary to adequately oversee churning investigation activities.

Field Division Management of Churning Investigations

      In addition to examining ATF Headquarters’ role in initiating and
supervising churning investigations, we also reviewed the management of
churning investigations at the field division level. We examined the policies
as implemented at the Special Agent level, particularly controls over
proceeds from churning investigations and the use of churning case-related
funds, as well as inventory controls over items purchased using churning
funds, such as cigarettes, equipment, and vehicles.

      We found that, even with the addition of the 2011 Memorandum that
updated some aspects of churning case management, the policies for the
use of churning funds and related items were inadequate and not
comprehensive.26 Specifically, we found that ATF had not adequately
ensured that Special Agents: (1) deposit proceeds obtained during a
churning investigation in a timely manner, (2) receive authorization to use
churning funds prior to making expenditures with those funds, and (3)
provide a detailed description of the requested use of churning funds.
Regarding the inventories of tobacco products and the use of other
equipment during investigations, we found that Special Agents were not
required to have and maintain a complete inventory of all tobacco products

      26
           ATF Order 3380.1, issued in April 2013, replaced the 2011 Memorandum, the
previous Tobacco Enforcement Program order, and several other memoranda and is ATF’s
current policy guidance for all alcohol and tobacco investigations, including churning
investigations.
         


                                         -25-

obtained during an investigation and that other equipment, such as vehicles
and surveillance equipment, was not inventoried and tracked. During our
field work we also identified several practices that we believe could
compromise the security of churning investigations we reviewed.

Controls Over Proceeds from Churning Investigations

      Prior to April 2011, when ATF issued the 2011 Memorandum, it had
not implemented policies and procedures for how agents should receive,
process, and store churning proceeds. The primary policies and procedures
for how money was to be received into ATF custody were contained in ATF
Order 3400.1B, Property Taken Into Bureau Custody. The Order required
that cash taken into ATF custody be converted to a cashier’s check or money
order and transferred to a suspense account within 5 days of its receipt.27
However, ATF Order 3400.1B did not account for the exemption granted to
ATF in 28 U.S.C. § 533, which established ATF’s authority to use churning
funds and permitted ATF to deposit monetary proceeds from an investigation
into an undercover bank account and use them in furtherance of the
investigation. When ATF issued the 2011 Memorandum, ATF had 25 open
churning bank accounts with a total of $46.8 million on deposit.

      Prior to that time, ATF’s Office of Professional Responsibility and
Security Operations conducted an internal audit of ATF’s churning accounts
and noted that ATF lacked sufficient internal controls for safeguarding
assets. Specifically, the ATF’s February 2011 audit determined that churning
proceeds were not always deposited into bank accounts in a timely fashion,
and it noted one instance in which an issue with a banking institution led a
Special Agent to store funds in an evidence vault safe for more than 1 year.

       Our review consisted of 20 investigations that deposited about $162
million into churning investigation accounts, including proceeds from the sale
of tobacco, earned interest, and non-investigative deposits.

      For each investigation, we documented and verified all of the deposits
of cash into undercover bank accounts from the proceeds of the sale of
tobacco products. As discussed previously, the 2005 Memorandum required
that all investigative activity be documented in a ROI, so we reviewed all
relevant ROI’s to document the date of each undercover transaction and to
determine whether the activity reported in the ROI matched what was



      27
          A suspense account is a combined receipt and expenditure account established to
temporarily hold funds that are later refunded or paid into another government fund when
an administrative or final determination as to the proper disposition is made.


                                          -26-

reported in the Monthly Reconciliations. We identified 1,559 deposits that
were made with the proceeds of investigative activity.

       Our review uncovered several issues related to deposits. For example,
ATF did not have a timeliness requirement for depositing the proceeds of
churning investigations. Many Special Agents told us that proceeds were
deposited within 5 days of the investigative activity; however, we found that
327 of 1,559 (21 percent) deposits totaling $27,426,277 occurred between 6
and 98 days after the investigative activity. For example, we found that one
investigation did not deposit over $688,000 in cash into the undercover bank
account for 31 days. In another instance, that same investigation did not
deposit over $739,000 into the undercover bank account for 51 days. ATF
officials did not provide an explanation for the delay in depositing the funds.
We also found that another field office routinely withheld proceeds from its
undercover bank account and kept the cash in a safe to be used as a “petty
cash box.” Although we could not determine the amount of proceeds this
field office kept in a safe, we reviewed a May 2011 entry in the investigative
management log indicating that Special Agents removed $27,500 in cash
from a safe and deposited it into the churning bank account.28

      We also found that for 206 (13 percent) deposits, totaling
$32.8 million, we could not determine the amount of time that elapsed
between ATF receiving the proceeds and the deposit of the proceeds because
the date on which ATF received the proceeds was not recorded in an ROI or
elsewhere in the case file. An ROI was required for every transaction in
which a special agent received money from a criminal target, yet we found
that the case files of the 20 churning investigations we reviewed did not
contain an ROI documenting the date of each of these 206 transactions.29

       We find the material lack of controls over the timely deposit of
undercover proceeds during the audit period to be alarming. Untimely
deposits of cash into bank accounts increase the risk of embezzlement,
theft, misuse, and mishandling of funds. We believe ATF must act
aggressively to ensure that controls for the handling of churning proceeds,



       28
          Our findings were consistent with the March 2011 report of the ATF Office of
Professional Responsibility and Security Operations, which found that funds received in
churning investigations were not always deposited into the undercover bank accounts in a
timely manner.
       29
          In some cases, it appears that an ROI was not required, and therefore not
prepared, because the tobacco was sold to another ATF investigation. Our findings
regarding the sale of tobacco from one ATF investigation to another are discussed on
page 31.


                                           -27-

including its current policies for depositing churning proceeds into an
undercover bank account, are adequate and scrupulously followed.

Approval to Spend Churning Funds

       According to the 2005 Memorandum, the forms and procedures for
using churned funds were similar to those for using agent cashier funds.30
As with agent cashier funds, the SAC of each field division had the authority
to initially approve or decline a request to use churned funds. Before
churning funds could be expended, a Special Agent had to complete a
Request for Expenditure form detailing exactly what the funds would be used
for. These requests were then to be approved by a submitting Special
Agent’s first-line supervisor prior to expenditure. Once the funds had been
expended, Special Agents were required to complete a Report of
Expenditures form, documenting the use of the churned funds and to include
receipts documenting the expenditure. The first-line supervisor then
reviewed and approved the Report of Expenditures to ensure that the
expenditure was in accordance with the request.

        In the 20 investigations we reviewed, we could not determine whether
first-line supervisory approval always occurred prior to the expense being
incurred. However, we found that, in 16 of the investigations, Special
Agents routinely expended funds prior to submitting the Request for
Expenditure form for approval. We received a variety of explanations for
why this may have occurred. For example, in reviewing the expenses that
occurred without approval, we found instances of recurring expenses, such
as cell phone bills, rent, and utilities, and were told by ATF officials that
some field offices did not require prior approval for such recurring expenses.
We were also told that Special Agents obtained verbal approval prior to the
expenses being incurred. In one field office, we found that request forms for
expenditures were submitted at the end of each month, and that requests
included the total expenditures made for that month. The Resident Agent in
Charge of that field office told us that his prior verbal approval was needed
for all expenditures. In another field office, we were told by a Special Agent
that prior approval was not required for every transaction; rather such
approval was only needed for expenditures over a specific threshold.
However, the Special Agent was not able to explain what that threshold was.
In all 20 investigations, the proper forms were ultimately approved by the
appropriate officials.

       30
          ATF policies and procedures for agent cashier funds are contained in ATF Order
3251.1. Agent cashier funds are appropriated funds allocated for use in investigations to
purchase evidence, provide subsistence for confidential informants, and other expenditures
in connection with the procurement of evidence pursuant to the enforcement of laws and
regulations within ATF's statutory jurisdiction.


                                           -28-

       In discussing our concerns related to this issue, many Special Agents
and supervisors we interviewed explained that while Special Agents always
received some sort of verbal or electronic approval, it was not always
practical to obtain the required written approval prior to expending funds.
According to these officials, some Special Agents did not operate out of the
same office as the division SAC and ASAC, and because some requests had
to be mailed for approval, the approval process could take several days.
Special Agents also stated that the requirement to obtain written approvals
prior to making expenditures could impede some investigations due to the
fast pace required for some investigative activities.

      Many ATF supervisors and Special Agents also told us that the
approval process for churning expenditures was wasteful and inefficient and
suggested that it be revised. SACs and ASACs we spoke to believed that the
requirement that they sign all churning expenditures, regardless of the
amount, was not a prudent use of their time. They suggested that ATF
develop a dollar threshold under which lower supervisory level approval
would be sufficient. Further, ATF officials suggested that recurring
expenditures, such as rent and utilities, should be approved only once, and
told us that ATF uses a similar process for recurring expenses that are paid
for with agent cashier funds.

      We believe that an efficient, risk-based process for documenting the
approval of churning expenditures is essential to ensure that the
expenditures are reasonable and necessary to the specific investigation.
Such a process also acts as a control against fraud and abuse. However, we
also believe that ATF’s current process for approving churning expenditures
could be streamlined without significantly increasing such risks. In addition
to the suggestions from ATF officials cited above, we believe that the use of
an electronic form could significantly decrease the amount of time the
process takes.

Churning Fund Expenditures

       As previously discussed, we found that the guidance regarding the
nature and types of allowable churning fund expenditures contained in the
2005 Memorandum provided inadequate guidance about what types of
expenditures were allowable with churning funds. As a result of this
deficiency, we were not able to examine the specifics of each transaction to
determine whether the transaction was allowable and fully supported. We
therefore reviewed churning case expenditures to determine whether ATF
had instituted adequate controls over the use of churning funds.



                                    -29-

       Our review focused on expenses incurred from the time an
investigation was granted churning authority through June 2011. During
that period, Special Agents for the 20 investigations we reviewed spent more
than $117 million on various expenses, including tobacco, equipment, travel,
and vehicle rental. Approximately 92 percent of the $117 million expended
was for tobacco. Nevertheless, our review identified several examples of
expenditures that, in our judgment, were wasteful. In addition, we
identified expenditures which, to the extent they furthered ATF’s operations
generally, appeared inconsistent with the statutory requirement that
churning funds should only be used to offset necessary and reasonable
expenses incurred in the same undercover operation that generated them.31

      Below we describe churning fund expenditures in eight categories of
expenses, as well as additional churning fund expenditures we reviewed that
raised concerns about ATF’s management of those funds. Exhibit 3
categorizes the expenditures by type of expense.

                                 Exhibit 3 

                  Churning Funds Expenditures by Category


                                                                         Percentage of
                                         Total Expenditure By
Category                                                                    Overall
                                               Category
                                                                          Expenditure
Tobacco                                 $             107,992,062                     92%
Investigative Payments                  $               2,906,903                      2%
Fees and Other Miscellaneous            $               1,766,693                      2%
Travel                                  $               1,669,365                      1%
Utilities and Rent                      $                 818,379                      1%
Vehicles                                $                 777,817                      1%
Transcription Services                  $                 685,208                      1%
Equipment, Accessories, and
Supplies                                $                368,291                       0%
Unknown Expenses                        $                166,019                       0%
Grand Total32                           $           117,150,737                      100%
Source: OIG analysis



      31
          See Public Law 102-395 § 102(b)(1)(D), which was applied to ATF in Public Law
108–447, div. B, title I, § 116 as described at 28 U.S.C. § 533 note; see also Government
Accountability Office, Office of the General Counsel, Principles of Federal Appropriations
Law, Third Edition, Volume 2, Page 6-162 and 6-163 (2004). (“As a general proposition, an
agency may not augment its appropriations from outside sources without specific statutory
authority.”)
      32
           The grand total is $117,150,738. The difference is due to rounding.


                                            -30-

      Tobacco

      For all tobacco-related expenditures, we documented the date,
quantity, and purchase amount of each transaction. The types of
expenditures in this category included cigarettes, tax stamps, counterfeit
tobacco, and other tobacco products, such as snuff, cigars, and bulk
tobacco. For these purchases, we attempted to match each purchase with
an invoice to verify that the quantity and cost on the invoice matched ATF
records. In the absence of invoices, we relied on documentation in the
investigative file, including the management log, requests for expenditures,
and records of expenditures.

       During our review period, the 20 churning investigations made 848
tobacco-related purchases. We found that ATF did not maintain a copy of
the required invoice for 182 (21 percent) of the 848 purchases. In 34 of the
182 instances in which there was no invoice, the case file or the
management log did not contain any documentation that allowed us to
determine the quantity or value of the tobacco purchased. As a result, we
could not verify the amount of tobacco purchased or the cost of the
individual purchases made. However, based on the documentation that was
provided to the audit team, we determined that the 20 churning
investigations spent a total of almost $108 million to purchase tobacco-
related products, including more than 9.9 million cartons of cigarettes from
distributors, manufacturers, wholesalers, and other ATF investigations.

      In addition to examining the accounting of funds used to purchase
tobacco-related products, we also examined the inventories of tobacco
products on hand for the 20 investigations. We found that in 11 of the 20
investigations, Special Agents purchased and traded tobacco with other ATF
churning and non-churning investigations, as well as other investigations
outside of ATF. This use of both funds and on-hand inventories violates
ATF’s policy that funds only be used to further the specific investigation for
which churning authority was granted. Because records were not always
maintained showing the quantity and brand of tobacco products in these
transactions, and because of other factors described below, we were unable
to conclusively determine how much tobacco was obtained, sold, traded,
given away, and destroyed in each of the investigations we reviewed.

      Investigative Payments

      Investigative payments include those payments made to criminal
targets or confidential informants for subsistence, travel, or other
investigative activities completed in the furtherance of an investigation.
Investigative payments also include payments for money laundering or the


                                     -31-

procurement of an otherwise illegal product from a target other than
tobacco, such as illegally trafficked firearms or illegal drugs.

       For the 20 churning investigations we reviewed, we determined that
$2,906,903 was spent on investigative payments. More than $1 million of
these expenditures was for the purchase of evidence, including tobacco
products and counterfeit tax stamps. These expenditures also included
money laundering activities. We found that $117,073 was spent on
subsistence and travel expenses for confidential informants, including
examples where ATF reimbursed confidential informants for insufficiently
documented expenses or substantial expenses without documenting the
connection between the expense and the investigation. Specifically, ATF
reimbursed an informant $8,779 for travel as part of a joint ATF operation
with another federal agency. The only documentation for the expenses was
an invoice from the informant’s company for air freight service and handling
fees. There were no receipts for airfare, hotel, or other travel expenses. In
another instance, the request for expenditure stated that funds were used
for travel-related expenses for a confidential informant, but $5,841 of the
$7,528 paid to the informant was for telephone bills that averaged over
$1,400 a month. Further, there was no explanation describing the
operational need for the significant monthly telephone costs.

      Fees and Other Miscellaneous

      For the miscellaneous category, we found that the majority of charges
were for wire transfer fees, typically associated with payment to tobacco
manufacturers. This category also included automated teller machine fees,
parking fees, parking tickets, credit card finance charges, and all
expenditures that do not conform to the other categories discussed in this
section. A total of $1.77 million in fees and miscellaneous expenses were
incurred.

      Travel

       We identified $1,669,365 in travel-related expenditures paid for with
churning funds within the 20 investigations we reviewed. Travel
expenditures included lodging, per diem, transportation, petty cash for travel
and transportation, and any travel-related expenditure not otherwise
classified elsewhere. Travel expenditures included travel by ATF employees,
Task Force Officers, and other federal, state, and local agency personnel.

      During our review, we identified many instances where little or no
information regarding the purpose of travel was included in the
documentation. As a result, we were not always able to determine whether


                                     -32-

the travel was in support of the specific investigation or for other purposes.
Some of these expenditures raised the concern that churning funds were
used to support administrative travel or travel of non-ATF personnel that
more appropriately should have been paid for out of ATF appropriations or
the appropriations of other agencies. For example, we found occasions
where churning funds were used to pay travel expenses for the following:

   	 ATF administrative employees, including Intelligence Analysts, 

      Intelligence Research Specialists, and Industry Operations 

      Investigators;


   	 ATF agents traveling from various field offices to Washington, D.C., to
      provide investigative updates; and

   	 Non-ATF employees, including officials from United States Attorney’s
      Offices, U.S. Immigration and Customs Enforcement, and the Internal
      Revenue Service.

      We found many other shortcomings in ATF’s travel-related
documentation. The files we reviewed did not always contain sufficient
documentation to show that approval had been granted prior to travel, as
required by ATF travel policies. In multiple instances, travel requests were
submitted after travel occurred and numerous travel-related expenditures
lacked supporting documentation, making it difficult for ATF to ensure that
churning funds were not wasted or used for prohibited purposes, and that its
employees remain accountable for their use of those funds.

      Utilities and Rent

        We found that $818,379 was spent on rent for warehouse space and
utilities for the 20 churning investigations we reviewed. The utilities paid for
included charges for telephone, cell phone, electricity, and gas for heating.
We also found that two investigations spent more than $193,000 in churning
funds to lease warehouse space owned by an ATF confidential informant.
Because the informant was cooperating with ATF and had an ongoing
relationship with ATF, these transactions are problematic and create the
potential for an actual or apparent conflict of interest. In addition, the two
investigations both paid for rent and utilities one year in advance, so the
utility charges were based on estimates, not actual costs. Because the rent
payments both investigations made were related-party transactions and the
terms of the lease were not documented, we could not determine whether
the lease amounts were fair market value.




                                     -33-

      Vehicles

       We defined vehicle expenses as those related to the rental or lease of
vehicles that were not associated with temporary duty travel. This category
also included vehicle-related expenses such as gasoline, repairs, and
maintenance.

      The 20 churning investigations in our review spent a total of $777,817
on vehicle-related expenses. Many of the expenditures in this category were
for the rental of trucks or vans to transport tobacco to or from undercover
transactions. However, we also found several expenditures that appeared to
be wasteful or an abuse of ATF’s churning authority.33 The following four
examples highlight our concerns:

   	 Although the churning investigations we reviewed typically had one or
      two agents assigned to them, we found that some investigations
      routinely rented multiple vehicles for extended periods of time. One
      investigation we reviewed paid more than $30,000 to rent 12 vehicles
      for up to 1 month. The lead ATF Special Agent for the case said the
      vehicles were for Task Force Officers but could not explain the
      operational need for the expenditure or the number of Task Force
      Officers that used the vehicles, so we could not determine whether this
      expenditure was reasonable and prudent. The same investigation
      spent $226,394 to rent between 3 and 12 vehicles on a monthly basis
      for more than a year. There was no documentation in the case file to
      document the operational need for the vehicles or indicate that they
      were being used solely to support the churning investigation that
      rented the vehicles, so we could not determine whether this
      expenditure was reasonable and prudent.

   	 According to ATF agents we interviewed, the ATDD would not permit
      churning investigations to purchase vehicles, but it would permit the
      leasing of vehicles. In one instance, a Special Agent leased a 2011
      Chevrolet Tahoe for 1 year at a cost of $30,000, which represents
      approximately 60 percent of the list price of the vehicle. We believe
      that if the vehicle was needed and met case-specific investigative
      requirements, obtaining the use of such a vehicle, either through
      purchase or a lease with more reasonable terms, would have been a
      better use of funds. In addition, we found no documentation to


      33
           Government Auditing Standards define abuse, in part, as “behavior that is
deficient or improper when compared with behavior that a prudent person would consider
reasonable and necessary business practice given the facts and circumstances.” See
Government Accountability Office, Government Auditing Standards, December 2011.


                                         -34-

      demonstrate that the vehicle was being used solely for the churning
      investigation that leased it.

   	 Churning funds were often used for maintenance and repairs of
      vehicles, yet we found a lack of documentation demonstrating that the
      vehicles being repaired were being used solely by the churning
      investigations, or that the vehicles were an integral part of the
      churning investigation. For example, within a 16-day period, one
      investigation spent more than $6,500 in churning funds to repair a
      Mercedes Benz. In a little over a month, another investigation spent
      $11,883 on vehicle repairs and maintenance. The same investigation
      also spent about $4,700 in a month’s time to repair a BMW and $1,200
      to repair a motorcycle. In each of these examples, ATF did not
      document that these vehicles were used exclusively for the churning
      investigation that paid for the repairs or that a cost benefit analysis
      was performed to ensure that the expenditures were prudent.

   	 Three investigations paid a confidential informant, a tobacco
      distributor, $70,443 to rent vehicles owned by the informant. Unlike
      commercial rental car agreements, ATF also bore the cost of
      maintenance and repairs to these vehicles, which were paid for with
      churning funds. The informant was not in the business of renting
      vehicles and there was no contract or written agreement documenting
      the terms of the vehicle rentals, so we are concerned that the
      arrangement gives the appearance that ATF rented the vehicles from
      the informant to financially reward the informant for his cooperation.
      Further, we were unable to determine whether these vehicles were
      used to further the investigations or that they were used solely for the
      churning investigations that paid for them.

      Transcription Services

       During our case review, we also identified expenditures related to
translation and transcription services, such as the transcription of wiretaps
and the translation and transcription of audio recordings of undercover
surveillance operations. We found that churning investigations expended a
total of $685,208 for transcription services. We did not identify any issues
specifically related to these expenditures.




                                     -35-

      Equipment, Accessories, and Supplies

       A total of $368,291 was spent by the 20 investigations we reviewed on
equipment, accessories, and supplies. The equipment included, but was not
limited to, computers, cameras, cell phones, surveillance devices, Global
Positioning System (GPS) devices, forklifts, safes, and cash counting
machines. Accessories included such items as iPhone and iPad covers,
phone chargers, and other items purchased in conjunction with equipment
purchases. Supplies included widely used office supplies such as paper and
ink cartridges.

      We determined equipment such as iPhones, iPads, and GPS devices
were routinely purchased without documentation demonstrating the
operational need for the specific undercover investigation. For example, in
one investigation, 20 GPS units were purchased at a total cost of $7,750
without documentation of the operational need or supporting evidence that
ATF did not already have comparable equipment available for that
investigation. These units were distributed to other agents in the field office
as well as Task Force Officers outside of ATF, and the lead Special Agent for
the case was not able to provide documentation to indicate who had
possession of each of the GPS devices, nor could he demonstrate that the
devices were being used solely to support the churning investigation.
Further, although there had been no investigative activity for almost 1 year,
some of the GPS units were still in the possession of and being used by
Special Agents and Task Force Officers. This is a violation of ATF policy,
which requires all property that is purchased in furtherance of the
undercover churning operation to be used only for that specific investigation.
These problems strongly indicate that ATF does not have mechanisms in
place to ensure its Special Agents adhere to this policy.

      As noted in a 2011 ATF internal audit, churning funds may not be used
to purchase items or services that are normally furnished by ATF to assist
Special Agents in investigations. However, we identified several purchases
of supplies and equipment that gave the appearance that this was occurring.
For example, one investigation purchased seven cameras for $14,000.
Another spent $2,743 for training guns, a ballistic shield, and other related
accessories that would normally be furnished by ATF. The case files for
these investigations contained no explanation for why churning funds
needed to be used for these purchases.

      We also found that two investigations spent $11,000 in churning funds
to lease forklifts and pallet jacks from an ATF confidential informant. This is
the same confidential informant that received payments described above in
the Utilities section and the Rent and Vehicle section. Our concerns about


                                     -36-

the appearance of related-party transactions described in those sections also
apply to the payments for the forklifts and pallet jacks. Specifically, the
informant was a tobacco distributor and was not in the business of leasing
material handling equipment. In addition, there was no contract or written
agreement documenting the terms of the leases, so we are concerned that
the transactions give the appearance that ATF leased the equipment from
the informant to financially reward him for his cooperation. Also, we were
unable to determine whether the equipment was used solely to further the
investigations or that they were used solely for the churning investigations
that paid for them.

       In addition, as with the other expenditure categories we reviewed, we
also identified expenditures listed as equipment with no supporting
documentation, including one charge of $3,422 reflected in bank records but
for which no supporting documentation was included in the file.

      ATF policy requires that all equipment purchased with churning funds
be returned to the General Services Administration at the conclusion of an
investigation. However, we found that Special Agents were not required to
maintain a physical inventory of items purchased with churning funds: only
1 of the 20 investigations we reviewed maintained a complete inventory,
including a location and disposition, of the property purchased with churning
funds. As a result, ATF was not able to adequately track and monitor assets
purchased and used throughout investigations.

      Moreover, we found that while some Special Agents maintained an
accounting of all assets, others did not. Those Special Agents that did not
maintain an accounting of all non-tobacco assets said that they could
reconstruct an inventory from monthly churning reports. However, by not
maintaining an inventory during the investigations, neither Special Agents
nor supervisors could adequately track assets during the course of the
investigation. Further, the absence of an accurate, periodic inventory
prevents ATF from being able to monitor whether the assets purchased with
churning funds had been used for other investigations.

      The absence of an inventory control mechanism increases the risk that
equipment purchased during the investigation will not be disposed of by the
General Services Administration as required, that churning funds will be
used in furtherance of non-churning operations, and that government
resources are subject to increased theft, fraud, waste, and abuse.




                                    -37-

      Unknown Expenses

      In our review of the 20 churning cases, we defined unknown
expenditures as those that did not have sufficient supporting documentation
to show the purpose of the expenditure. We found that supporting
documentation was not available for 32 credit card transactions totaling
$166,019. In these instances, the requests for and records of expenditures
did not itemize the expenses, and there were no receipts or other supporting
documentation to explain or account for the expenditures.

Controls Over Tobacco

       When our audit began, ATF had no written policies and procedures for
procuring tobacco, maintaining an inventory of tobacco products on hand, or
tracking tobacco products used in ATF undercover investigations.
Specifically, ATF tobacco investigations were not required to order tobacco
products through ATF’s Procurement Specialist, who is specifically charged
with procuring tobacco from tobacco manufacturers for use in ATF
operations, thereby impeding ATF’s ability to track, monitor, and reconcile
the amount of tobacco ordered and used in these investigations.
Furthermore, there were no policies requiring each churning investigation to
track the amount of tobacco products ordered, received, traded, sold, given
away, or destroyed during undercover investigations. Given the large
amount of money spent by ATF churning investigations to purchase
cigarettes – ATF agents spent $108 million to purchase more than
9.9 million cartons of cigarettes in the 20 investigations we reviewed – it is
vital that ATF be able to account for all of the tobacco products it uses in its
churning investigations.

      Tobacco Procurement

       At the time our audit began, we found that ATF’s controls over the
purchase of tobacco products were insufficient based on the 2005
Memorandum and our review of ongoing and recently closed cases. While
ATF has since taken steps to improve these controls with a new procurement
policy, implemented in March 2011, as well as the 2011 Memorandum, we
still have concerns about the ability of ATF agents to purchase tobacco
products with churning funds without proper permission or adequate
oversight.

      In 2010, prior to our audit, an OIG criminal case involving a joint
tobacco diversion investigation between ATF and a local police department,
led to the conviction of an ATF Special Agent. The ATF Special Agent was
convicted of selling untaxed cigarettes to one of his informants outside the


                                      -38-

scope of the joint investigation. The Special Agent had purchased cigarettes
from a major manufacturer in connection with the joint investigation but
then diverted a portion of the product to a private storage facility that he
had rented. After doing so, the Special Agent notified the informant, who
retrieved the cigarettes and left a payment for the Special Agent. Through
this scheme, the Special Agent made about $20,000 to $25,000 in a 3-
month period.

      Because ATF did not have adequate internal controls in place to
monitor the activities of the Special Agent throughout the undercover
investigation, ATF did not discover the agent’s illegal activities. Instead, the
agent’s scheme was identified accidentally by a local police officer working
on the tobacco diversion investigation. One of the informants to whom the
Special Agent had sold cigarettes sent the Special Agent an e-mail on a
smartphone assigned to the investigation that was in the possession of one
of the local police officers at the time, and the contents of the e-mail led to
the investigation into the Special Agent’s activities.

       In March 2011, during this audit’s fieldwork and in response to issues
identified in an ATF internal audit, ATF issued a new procurement policy
designed to enhance the procurement and management of tobacco.34 The
policy included requirements for tobacco procurement through the
agreements with tobacco manufacturers. Under this new policy, Special
Agents must initiate tobacco requests through their supervisor, ASAC, and
SAC. The new procedures also require a member of the ATDD staff to
review the request and the investigation within ATF’s case management
system, N-Force, to ensure that: (1) the case is an actual ATF investigation,
(2) the tobacco will be used solely for the investigation noted in the request,
and (3) the tobacco is being ordered by ATF and paid for using ATF funds,
whether appropriated funds or churning funds.

       Our review of the 20 churning investigations found that these policies
provided inadequate controls over the procurement of tobacco products. For
example, we found no evidence that reconciliations had been performed
between the amount of tobacco ordered and the amount used in ATF’s
undercover investigations. Nor did we find any evidence that ATF had
instituted controls adequate to ensure that tobacco was ordered exclusively
for tobacco cases. Rather, we found that ATF relied on an honor system for
obtaining and using tobacco products.




       34
         The internal audit was completed by ATF’s Office of Professional Responsibility
and Security Operations in March 2011.


                                           -39-

       In addition, although ATF maintains agreements with manufacturers to
purchase tobacco for use in undercover operations and has a designated
Procurement Specialist to make these purchases, we found that ATF Special
Agents, responsible for churning investigations, also procured tobacco
through other means, and that these alternative procurement channels were
not prohibited by the 2011 memorandum. Further, there was no
requirement for Special Agents to notify the Procurement Specialist of
tobacco ordered through these other means. Special Agents we interviewed
identified two reasons for the procurement outside of ATF’s manufacturer
agreements. First, while the agreements include some of the most popular
cigarette brands, they do not cover all tobacco manufacturers. Because
cigarette diversion investigations often included lesser known and generic
brands of cigarettes not covered by the manufacturer agreements, Special
Agents repeatedly told us they had no choice but to purchase these lower
cost cigarettes directly from the manufacturer or from a distributor. Second,
as of December 2012, there was only one Procurement Specialist who could
purchase cigarettes through the manufacturer agreements at ATF, and when
the Procurement Specialist was not in the office, tobacco orders were not
processed until the Specialist returned. Special Agents said they therefore
often purchased tobacco products from other sources, such as distributors
and other ongoing ATF investigations, to avoid lags in the supply of tobacco
that could undermine their investigations.

      We found that when tobacco was purchased outside of the
manufacturer agreements, it went through the same review process as any
other purchases with churning funds, such as travel, would go through,
including a review and approval through the Special Agent’s supervisor.
However, because this alternate procurement channel did not involve ATF
Headquarters, we also found that these purchases hindered ATF’s ability to
track, monitor, and reconcile the use of tobacco in ATF investigations.

       We believe it is important for ATF to have mechanisms in place to
track the disposition of all tobacco procured throughout each investigation.
By not having the controls in place to track and monitor tobacco procured
and used in its investigations, there is a risk that ATF may significantly
increase the supply of tobacco to the illicit tobacco market, compete with
legitimate businesses, or be subject to fraud and abuse.

      Tobacco Inventory

       Because cigarettes and other tobacco products are easily sold, it is
vital that ATF investigations maintain accurate inventories so ATF can
properly account for all of the tobacco products received and used during its
investigations. However, prior to the issuance of the 2011 Memorandum,


                                    -40-

ATF did not require that tobacco products be inventoried on a regular basis
throughout an ongoing operation. Our review of 20 churning investigations
found that only 5 of the investigations conducted any inventory of tobacco at
all, and a March 2011 review by the ATF Office of Professional Responsibility
and Security Operations was unable to reconcile the final tobacco inventory
of ATF churning investigations because nearly all of the investigations did
not maintain a tobacco inventory and did not account for damaged
inventory.

      In response to our questions regarding an inventory of tobacco
products, Special Agents told us that several issues made it difficult to
account for all of the tobacco purchased by churning investigations. Special
Agents stated that they routinely traded tobacco with other ATF
investigations and gave cartons of cigarettes to criminal targets as samples.
They told us that some tobacco was damaged in transit or by insects and
had to be discarded. Some Special Agents stated that they thought that
criminal targets sometimes stole cases of tobacco being maintained for
investigations. Some Special Agents also told us that maintaining an
accurate record of the tobacco purchased and used during churning
investigations was difficult due to the sheer volume of tobacco involved in
some churning investigations.

       We examined the accounting for and disposition of all of the cigarettes
on record for the investigations, including the number of cigarettes
purchased, sold, or otherwise disposed of on record. As a result of inventory
control issues and a lack of documentation, for the 20 investigations we
reviewed, we could not reconcile the amount of cigarettes purchased by ATF
with the number of cigarettes sold or otherwise disposed of, resulting in an
inability to account for approximately 2.1 million cartons of cigarettes (or
420 million cigarettes) purchased by the 20 investigations, 1.4 million
cartons of which were attributable to one investigation. We estimate the




                                    -41-

retail value of the about 2.1 million cartons of unaccounted tobacco to be
more than $127 million.35

       By not having inventory controls in place for tobacco products, there is
not only a high risk of theft, but also ATF cannot be assured that those
products purchased for churning investigations are being used for their
intended purposes. As a result, there is a concern that ATF may not have
fully complied with 28 U.S.C. § 533 in the management of its cases, in that
proceeds are required to be used in furtherance of the investigation for
which authority was granted. ATF’s 2011 Memorandum appropriately
requires that all tobacco purchased with churning funds be inventoried once
a month. However, the Memorandum does not require periodic, physical
inventories of the tobacco. In addition, the memorandum does not require
the tracking of tobacco products purchased prior to an investigation
receiving churning authority, potentially resulting in an inaccurate starting
inventory.

      We believe ATF needs to establish additional controls to ensure an
accurate accounting of all tobacco purchased and sold throughout each of its
investigations. Further, ATF should implement policies and procedures to




       35
           Our estimate of the unaccounted tobacco is based on a retail price of $5.95 per
pack and each carton containing 10 packs. According to Ann Boonn, “State Cigarette Tax
Rates & Rank, Date of Last Increase, Annual Pack Sales & Revenues, and Related Data,”
Campaign for Tobacco-Free Kids, March 6, 2012, the average retail price per pack of
cigarettes across all states, including applicable federal and state taxes, was $5.95, with
prices ranging from $4.02 to $10.14.

         In response to our draft report, ATF officials requested that we use the wholesale
price of cigarettes, rather than the retail price, when computing our estimate. These
officials stated that the wholesale price was often as low as $10 per carton, or $1 per pack.
However, we determined that more than 50 percent of the more than 9.9 million cartons of
cigarettes purchased for the 20 investigations we reviewed, were premium brands that had
a wholesale price of as much as $30 carton, or $3 per pack. Moreover, although the
wholesale value of the cigarettes represents the cost at which ATF purchased the cigarettes,
it would not properly account for the churning funds ATF would have raised had it sold the
cigarettes as part of its investigation. Nor does the wholesale price account for the value of
the potential tax revenue lost by state and local governments, or the potential profits lost
by legitimate businesses, in instances where lost or stolen cigarettes are purchased as a
substitute for retail cigarettes.


                                            -42-

ensure all tobacco that is given away, damaged, lost, or traded is
appropriately accounted for and reported.36

Operational Security

      Operational security is an essential element of undercover
investigations, and includes the steps taken to minimize the risk of harm to
Special Agents, confidential informants, and unwitting members of the public
during an investigation. Additionally, operational security includes
protecting the identity of confidential informants used to assist in
investigative activities.

      During our field work we identified several practices that we believe
could compromise the churning investigations we reviewed.

       Confidential Informants

      ATF Order 3250.1A, Informant Use and Undercover Operations,
requires that the identity of confidential informants be treated with utmost
security, and that a confidential identity code be used in all instances where
reference is made to an approved informant. The order provides an
exception in situations that resulted in a payment of money to a confidential
informant. Moreover, ATF Order 3250.1A specified that agent cashier
reports, which churning reports are modeled after, only refer to an informant
by their confidential informant identity code.

       36
           After learning of our findings, ATF’s Deputy Director ordered ATF forensic auditors
to conduct a separate reconciliation of the disposition of cigarettes from two of the largest
cases in the OIG’s 20 case sample, as those two cases included the substantial majority of
the 2.1 million cartons of cigarettes we could not reconcile.

        The ATF told us that it reviewed every single Report of Investigation (ROI) from
these two cases to see if it referenced the disposition of cigarettes, even if the ROI was not
referenced in the case management log. The ATF stated that during this review, it found a
limited number of unexplained deposits associated with the two investigations and assumed
that those deposits were related to the sale of cigarettes and then estimated the number of
cigarettes that were likely sold given the amount of the deposit. Using these methods, the
ATF review arrived at a significantly smaller amount of unreconciled cigarettes than our
audit. The ATF review did find similar problems as the OIG has described in this report,
including “a clear lack of internal controls, oversight, training and policy to guide ATF agents
in these cases which resulted in a lack of uniformity in procedures, required documentation,
inventory controls, and accountability.”

       ATF describes its review in more detail in its response to this audit, which is attached
as Appendix II. However, for the reasons we outline in our response which is attached as
Appendix III, we do not believe the results of ATF’s review are comparable to the OIG
review.


                                             -43-

      We determined all confidential informants, used in churning
investigations we reviewed, were referred to by the assigned confidential
informant number. In 19 of the 20 investigations, the financial and
supporting documentation protected the identity of the confidential
informant. However, in one investigation, we identified several instances in
which both the legal names and informant numbers of confidential
informants were identified in financial and other supporting documentation.
In one instance, the confidential informant’s name was readily identifiable in
e-mails from the confidential informant to the case agent. We observed one
transaction in which several confidential informants’ legal last names and
informant numbers were included on the same page. We discussed the
issue with the Special Agent assigned to the investigation and he was unable
to provide an explanation.

      We also found that case information was not routinely maintained
using adequate safeguards, such as retaining specific information regarding
informants separately or controlling information in a manner that protected
the identities of confidential informants. As a result, we recommend that
ATF develop and strengthen confidential informant record retention policies
and procedures to ensure better protection of the true identities of its
confidential informants.

      Special Agents

      We identified several instances in which Special Agents reimbursed
themselves for travel in the form of a check written from the Special Agent’s
undercover alias to his legal name. One Special Agent stated he did not
view this as an operational security issue and added that undercover
operations are not risk-free no matter what countermeasures are employed.
Additionally, the Special Agent told us the only alternative was to reimburse
himself with cash, which could create the appearance of impropriety.
Nevertheless, payment directly to a Special Agent’s true identity from a
churning account risks compromising operational security because it
provides a direct link between the agent’s true identity and position and the
undercover operation.

      We also found instances where ATF personnel mixed true and
undercover identities in one transaction. For example, one investigation
purchased office supplies at a local business and the invoice stated that ATF
purchased the items, but the items were paid for using a check from an
undercover checking account. This mixing of undercover and true identities
could reveal the identity of an ATF operation to the employees of the office
supply store and anybody else with access to the transaction’s
documentation.


                                    -44-

Conclusion

      Our evaluation of ATF’s management of churning investigations at both
the Headquarters and Field Division levels revealed that during the audit
period substantial weaknesses existed. Most significantly, we found that ATF
lacked comprehensive policies and procedures to adequately oversee and
manage its churning investigations. Further, because the Undercover
Review Committee was inactive during the period covered by our audit, and
ATF did not have other controls in place, it could not ensure that churning
investigations operated within the scope of the authority they were granted
through the Department’s approval.

      ATF must ensure it has mechanisms in place to adequately track,
monitor, and reconcile tobacco used by ATF’s churning investigations.
Without these safeguards, ATF cannot be assured that tobacco or tobacco
proceeds are not subject to waste, theft, fraud, or abuse. Also, by allowing
the procurement of tobacco for churning investigations from sources other
than through ATF’s Procurement Specialist, including the purchase of
tobacco between ongoing investigations, ATF cannot determine the amount
of tobacco purchased or used in each churning investigation.

      Similarly, because ATF did not have a requirement to inventory
tobacco products, we were unable to account for more than 2.1 million
cartons of tobacco products purchased by the 20 churning investigations we
reviewed. We estimate the retail value of the more than 2.1 million cartons
to be more than $127 million. Further, ATF was unable to provide a
complete accounting for equipment purchased with churning funds. Without
a complete accounting, ATF cannot assure itself that none of the tobacco or
equipment purchased with churning funds was misappropriated or wasted,
or that churning funds were not used for ATF’s overall operations.

       We also found significant issues with ATF’s controls over cash
management during churning investigations. Specifically, we are concerned
that field division and field office supervisors did not always ensure Special
Agents received authorization prior to using churning funds and did not
receive a detailed description of the use of churned funds. During our
review, we identified purchases that appeared improper, unnecessary, and
unreasonable. We also identified expenditures made using churning funds
that were in support of non-churning operations. The equipment, accessory,
and supply expenditures we reviewed that lacked corresponding
documentation demonstrating the churning investigation’s specific need for
the items raised questions of whether ATF would have funded the purchases
with non-churning funds as organizational expenditures. As a result, we are


                                    -45-

concerned that there may have been instances where purchases using
churning funds supplemented ATF’s non-churning operations, which is
prohibited.

      Also, because we found that proceeds received as a result of
undercover activity were not always deposited in a timely manner, we
believe that ATF should establish and implement more stringent controls for
the handling, safeguarding, and deposit of all proceeds into undercover bank
accounts.

      Finally, we identified various practices that we believe could undermine
operational security by revealing the true identities of the confidential
informants and agents involved in churning investigations.

       Money generated through churning investigations belongs to the U.S.
Government, and it is ATF’s responsibility to ensure that such funds are
expended appropriately and as mandated by ATF policy. We believe ATF
should develop and implement clear policy regarding the permissible uses of
churning funds, implement policies and procedures that minimize the risk of
fraud and abuse, and strengthen policies and procedures for protecting the
identity of confidential informants and undercover agents.

Recommendations

We recommend that ATF:

      7.	   Develop and finalize churning policy guidance and issue it in an
            ATF Order.

      8.	   Ensure that all tobacco procured for investigations is adequately
            documented, tracked, inventoried, and reconciled, including a
            system for the independent and periodic review and
            reconciliation of tobacco inventories by headquarters
            management staff.

      9.	   Develop and implement policies and procedures to ensure that
            churning investigations do not operate outside the original
            authority for which they were granted. These policies and
            procedures could include using the Monitored Case Program to
            ensure that a churning operation’s targeted subject remains the
            focus of the case throughout the duration of the case.




                                    -46-

10.	   Ensure each churning investigation transaction involving the sale
       or purchase of tobacco as well as corresponding deposits and
       expenditures is thoroughly documented in N-Force.

11.	   Update the Monitored Case Program requirements to ensure ATF
       Headquarters can adequately monitor churning investigations.

12.	   Develop and implement a system to ensure proper inventory,
       management and disposition of non-tobacco assets.

13.	   Develop and implement policies and procedures to ensure the
       timely deposit of churning funds.

14.	   Design and implement a more streamlined process for approving
       expenditures and consider an electronic version of its approval
       process.

15.	   Develop and implement clear policy regarding the permissible
       uses of churning funds. Such policies should, among other
       things, identify categories of expenses that are and are not
       permissible uses of churning funds.

16.	   Examine and update existing policies and procedures to ensure
       that churning funds are used only to offset the necessary and
       reasonable expenses of the same, authorized investigation that
       generated them, and not used to fund separate investigations or
       ATF’s operations generally.

17.	   Strengthen policies and procedures to ensure the confidentiality
       of confidential informants and undercover agents.




                               -47-

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of ATF’s churning authority internal
controls was not made for the purpose of providing assurance on its internal
control structure as a whole. ATF’s management is responsible for the
establishment and maintenance of internal controls.

       As noted in the Findings and Recommendations section of this report,
we identified deficiencies in ATF’s internal controls that are significant within
the context of the audit objectives and that we believe, based upon the audit
work performed, adversely affect ATF’s ability to provide adequate oversight
and management of its churning investigations. The lack of comprehensive
policies and procedures has contributed to a lack of consistent oversight and
management of ATF’s churning investigations.

       Because we are not expressing an opinion on ATF’s internal control
structure as a whole, this statement is intended solely for the information
and use of ATF. This restriction is not intended to limit the distribution of
this report, which is a matter of public record.




                                      -48-

        STATEMENT ON COMPLIANCE WITH LAWS AND 

                     REGULATIONS 


       As required by the Government Auditing Standards, we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices to obtain reasonable assurance that ATF’s
management complied with federal laws and regulations for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. ATF’s management is responsible for ensuring compliance with
federal laws and regulations applicable to ATF. In planning our audit, we
identified the following laws and regulations that concerned the operations of
ATF and that were significant within the context of the audit objectives:

      	 28 U.S.C. § 533, as amended.

      	 18 U.S.C. Chapter 114 – Trafficking in Contraband Cigarettes and
         Smokeless Tobacco (2010).

      Our audit included examining, on a test basis, ATF’s compliance with
the aforementioned laws and regulations that could have a material effect on
ATF’s operations through interviewing ATF personnel and obtaining and
testing tobacco investigation data.

As noted in the Findings and Recommendations section of this report, in
addition to the several instances of non-compliance with ATF policy, we
found that ATF did not fully comply with the requirements of
28 U.S.C. § 533, as amended. Specifically, we identified a churning
investigation that operated without being properly authorized by the ATF or
the Department, which was a violation of ATF’s churning authority.




                                    -49-

                                                                 APPENDIX I 


           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of this audit were to determine whether: (1) ATF
properly authorizes its income-generating, undercover operations; and
(2) ATF provides adequate management and oversight of its income-
generating, undercover operations at the headquarters and field division
levels.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       To accomplish our audit objectives, we examined churning
investigation case data from February 2006 through June 2011. In order to
achieve our audit objectives, we conducted work at the following 8 of ATF’s
25 field divisions:

      Atlanta, Georgia                       Baltimore, Maryland

      Charlotte, North Carolina              Detroit, Michigan

      Kansas City, Missouri                  Newark, New Jersey

      Philadelphia, Pennsylvania             Washington, D.C.

       We interviewed current and former staff members of the Alcohol
Tobacco Diversion Division, staff members of the Case Management Branch,
Accounting Division staff, attorneys from ATF’s Chief Counsel’s Office, as well
as ATF executives with oversight responsibilities for ATF churning
investigations. We also interviewed Special Agents, Group Supervisors,
Assistant Special Agents-in-Charge and Special Agents-in-Charge. In total,
we interviewed more than 70 ATF officials, as well as other Department
officials discussed below.




                                     -50-

Investigation Universe and Selection

       To ensure our field work was comprehensive and our conclusions
derived from sufficient evidence, we judgmentally selected 20 of 35 churning
cases to review. We selected which investigations to audit and
corresponding field divisions to visit from documentation provided by ATF.
The documentation provided by ATF indicated that the 35 churning
investigations were led by 14 ATF field divisions. From the universe of 35
investigations, we judgmentally selected which cases we would review based
on the number of open churning investigations at the respective 14 field
divisions. We relied on a judgmental sample as our case selection
methodology to ensure we were able to review the greatest number of cases
and the greatest amount of churning funds given time and resource
constraints. We reviewed 100 percent of the selected investigations’
churning expenditures as well as 100 percent of the proceed transactions
and therefore did not rely on a statistical sample. When we conducted our
testing we were reasonably assured the information we reviewed was
reliable because expenditures and deposits reported on monthly churning
reports were reflected on the bank statement of the churning account.

Authorization of Income Generating Operations

       We compared the 35 churning authorization requests to the churning
approval process, documented by ATF, to determine if ATF was conforming
to its own internal standards for approving churning authorization requests.
We obtained and reviewed documentation from ATF and the Department to
ensure each churning authorization request was approved by the Chief of
Alcohol Tobacco Diversion Division, the corresponding ATF Deputy Assistant
Director, and the Department Chief of Organized Crime and Racketeering
Section (OCRS) in the Criminal Division. We interviewed Alcohol Tobacco
Diversion Division officials and the former Chief of OCRS at the Department
of Justice.37 ATF officials interviewed, held the direct responsibility for
reviewing and approving churning authorization requests within ATF and the
Department of Justice. We also compared the 35 churning authorization
requests to the criteria in the 2005 Churning Memo to determine if criminal
targets were identified in the churning authorization request as specifically
as possible.



      37
          The Alcohol Tobacco Diversion Division was a branch of the Alcohol and Tobacco
Enforcement Branch. In January 2009, it was elevated to the Alcohol and Tobacco Diversion
Division. In October 2011, the Alcohol and Tobacco Diversion Division reverted to the
Alcohol and Tobacco Diversion Branch. For purposes of consistency the report will refer to
the Alcohol Tobacco Diversion Division as a Division.


                                          -51-

Headquarters Oversight

      In order to determine the adequacy of oversight at ATF Headquarters,
we interviewed Alcohol Tobacco Diversion Division personnel as well as ATF
Special Agents and Group Supervisors to determine the amount of guidance
that was being provided by the ATDD. Our interviews included the current
chief as well as three former chiefs of the ATDD. In order to assess the
adequacy oversight of field operations, to determine if the field was given
adequate guidance for procurement, inventory, and expenditures, and to
determine whether the field was given controls to limit the scope of churning
investigations, we reviewed ATF’s tobacco procurement policy, the 2005 and
2011 churning policies, ATF’s agent cashier orders, and undercover orders.

Field Oversight

      In order to determine the adequacy of ATF’s oversight of revenue
generating operations at the field division and field office level, we tested the
controls associated with operational security, tobacco inventory and churning
expenditures. We interviewed Special Agents, Group Supervisors, and
Assistant Special Agents-in-Charge or Special Agents-in-Charge. We
reviewed monthly churning reconciliation reports as well as the supporting
documentation associated with the monthly churning reconciliation report to
determine if expenditures conformed to ATF policy. We reviewed ATF’s 2005
Churning Memorandum, Agent Cashier Order and Mission Travel Order to
determine if churning expenditures conformed to ATF policy. To determine if
churning funds were adequately safeguarded, we reviewed Reports of
Investigation and Management Logs to verify that proceeds reported on
monthly churning reconciliation reports from undercover tobacco sales were
deposited into churning accounts. We verified that proceeds were deposited
by comparing the Report of Investigation and Monthly Churning report to the
investigation’s bank statement. In order to determine how each of the 20
churning investigations spent its churning funds we relied on churning
monthly reconciliation reports from 20 churning investigations to classify
churning expenditures into eight functional expense categories.38

      We reviewed ATF Order 3250.1A, Informant Use and Undercover
Operations, to ensure operational security requirements were implemented
by ATF Undercover Revenue Generating Operations specific to confidential
informant security and agent security. We compared the financial

       38
          OMB Circular A-123 advises for each significant account or groups of account for
an agency to be able to identify the major classes of transactions that materially affect
those accounts. OIG classified the churning transactions for the 20 churning investigations
because ATF had not done so for the entire period of the 20 investigations to determine how
these investigations spent churning funds.


                                           -52-

supporting documentation within the churning case files to the record
retention requirements of 3250.1A.




                                    -53-

                                                                                                APPENDIX II 


 THE BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND 

EXPLOSIVES’ RESPONSE TO THE DRAFT AUDIT REPORT



                                                           U.S. Department of .Ju~tice

                                                           Bureau of Alcohol, ToOOcco,
                                                           Firearms and Explosives


                                      SEPl 6 IOU           WMh intton. IX: 20226
                                                           WWW.l tC.go v

     MEMORANDUM TO:                 Inspector G ene~?
                        FROM:         Director. Bureal~ 0                   ceo, Fireanlls nnd Explosives

                    SUBJEcr:         Response 10 the Oflice 0 tbe In      orGcnentl's Audit Report on
                                     the Bureau of Alcohol, T '      , brearms and Explosives' Usc of
                                     [ncome-Geoerating, Uooerwver Operations.


    Thank you for allowing the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATf) the
    opponunity to review and comment on the report el)litled "Audit of the Bureau of I\lcohol,
    Tohacco, Firoamls and Explosives' Use of Inoome..(Jcner.lling, Undercover Operalions." As
    noted in your report, ATF hrul c:o.:crcisefl i t~ authority \0 usc proceeds gcncl"all::d from undt"fcovcr
    operations to offset m..'ccswy and reasonable operational expenses (so-called "churning")
    exclusively for invesligations oflobacco diversion. which involve criminal evasion of tobacco
    !ax=

    As early as Mareh 2011, ATF recogui2cd issuC$ with the manner in whidl income.gmerating
    undercover operations were being conducted. I ATF subsequently undertook remedial ffiC!l5Uft:S
    10 correcl operational deficiencies., including the issuance of an Apri l 2011 memorandum and an
    April 2013 AU' Ordcr(ATPOrder 3380.1 , Alcohol and Tobacco Enforcement Progmms) So.'1ting
    forth m()re stringcnl controls and restrictions over the use of funds and procurement in churning
    operations. The 20 13 Order sets out formal policy and in."truction for all alcohol and tobacco
    investigations, including churning investigations. Undcr current policy, income-generating
    undercover operntiotls are subject to detailed and rigorous application, review, approval. and
    oversight mechanisms that include the rollowing:

    o A TF personoel must complC1.e churning investigation tr.tining prior to requesting authority to
      initiate and conduct a churning investigation.

    o ATF's Undercover Review Coounittec must revi~v and approve all requests for churning
        authority, which must include the appropriate U.S. Attorney'.!! written concurrence with the
        investigative plan. The plan must also identify the specific target" of the inve5tigalion.

    o ATF will only authorize churned fund expenditures for specific items and/or services.
      Expenditures will no longer be authorized for travel. confidential informWlI expenses, or t(l
      purchase investigative equipment.



    , Su Appmdi ¥ I, Timetine Df Churning Rtmcdj,,1 MC8illm.




                                                     -54-

                                                 -2-

 Michael E. Horowit2
 Inspector General

o All e.'(pendilures must be authorizt.:d in writing prior to their expenditure. When time­
  sensitive. supervisor approval for chumN rund expenditures may be provided via e-mail to
    erulUfe pre~xpc::ndj ture   approval.

o   Field offices are required to submilall requests for unru:rcover product via e-mnil to an
    Alcohol and Tobacco Enforcement Bronch Outloolr: mailbox idemifying specific information
    in the request.

o Field offices are required to note in the Co.se Management Log all wldercover product
    movement.

o Field offices arc required to note in the Case Managemem Log all Churning Undercover
    Bank ACCOUDI (UeRA-C) deposits.

o   Field offices are required to complete all UC BA-C deposits within 24 hours of the
    undercover sale.

o On Ii monthly basis, investigations must submit A I'!-' Monitored Ca.-.e briefUlg reports to ATF
  executives that identify Ihe total amount of product procured and sold via undercover sale to
  each individual suspect, as well as the total of pTOCL-OOS deposited to the UCBA·C, \olal
  UCBA-C funds expended, and current lJCBA·C balance.

o Field offi<X!S must Iinali7,t all churned fund expenditl.ltl:s and dispose of churning property to
  the Geneml Services Administrlltion within 30 days oftlte conclusion of the operational
  undcf'C(Ilier phase ofllle investigation.

o On a monthly bnsis, the Special Agent Churning Account Manag!.'!' must conduct a physical
  inventory check of oil undercover products.

o Special Agent Churning Account MUflIlgcrs must utiHZI:: accoullting ~onware to track all
  churning property wld inventory.

o   On a monthly basis, ATF forensic auditors must audit all churning financial and property
    inventory re-cords.

o On an annunl basis., ATF forensic auditors must conduct annual and/or case c.losing audits al
  the field office level and provide those results 10 the Special Agent in Char~~ and Deputy
  Assistani Director responsible for the inv.;.'Sligalion.

The TL'JX'rt addresses un alldit period of February 2006 through June 20 11 , a time-frame that
predates the implementation of most of these policies. AlF agrees with the audit team that the




                                              -55-

                                                               -3-

 Michael E. Horo\\;tz
 Inspector General

 policies and controls governing "churning" investigations during the bulk of the ::ludit period
 were seriously deficient, and we accept full responsibility for the management and oversight
 lap!lCS thal a1lo....'ed those deficiencies io develop. ATF bdieves, however, that readers of the
 report m3y inaccurately conclude lhallhese historial problems continue to the \;Urrenl day. They
 do nol. The report's findings do not reflect CUlTl;!nl ATF policy or practice in this area. As the
 measures ouUi!led above reflect, current ATF leadmhip has vigorously addressed tbe historical
 deficiencies identified in the TqXIrt, and we are committed to ensuring Uml ATF conducts all
 investigations with the highc:;t standard<; of accolUltability to the AmericaD public.

 RecnncmalioD of Cigarrtte InventoD'

While AIT agrees with the core conclusioruJ se1 forth in the report Wllh l\."'"Spect to inadequate
historical policies, we believe that the rcpon inllCcumtely implies that A'IT cannol accouot for
2. 1 million cartons of cigarettes, and wrongly concludes that this "un-reconciled" inventory
should be valued based upon the retail price of cigarettes sold in legal commerce rather than the
actual black market prices at which Ihis merchandise W.tll sold in the 20 investigations selected
by OIG.

The report finds that, due to inadequate documeol.6.tion of cigarette inventories within AIT' s
case files OIG was wtable to reconcile the disposition or2.1 million cartons of cigareues. Set
010 Report. at iii. 18. 42-44. While ATF agrees that there WIIS inadequate documentation of
some tobacco transactions conducted in these investigation~, we do nOI agree thatlhose
deficiencies in documentation pre\'ent reconciliation of cigarette inventory to a far greater extent
than that reached by the DIG audit team. ATF's forensic auditors conducted a compreilcnsive
reconstructive invcnlorr recon(liliation of the disposition of cigarettes by reviewing reports of
investigation, bank account transactions, expenditure reports, and invoices from the two largest
cases among the investigations reviewl-d by the DIG; these two cases account for nearly 1.8
millioo of\hc 2.1 million cigarette cartons that thc OIG Auditors were unable to reconcile (I.e.,
more than 85% of the "un-reconciled'" inventory). By expanding its review beyond
documentation readily available in case files to the full range of available documentation, the
ATP auditors conducted a far more in-depth analysis oflhe cigarette transactions at issue than
did the OIG Audit team?

In contrast to the 2.1 mi llion cartons of cigan1.tes that the·OIG auditors were unable to reconcile,
the results of ATF's reconstructive invl'lltory showed that only 447,2 18 cartons of cigarettcs
could Dot be ful ly reconciled (due t o insufficient documentation)_ Whik ATF stands accountable
for all cigarette inventory acquired in these investigations, ATF belicvC$ that the results of the

I "Rccomrtructivt inventory" Is a weU-cslablis.hed methodology used l:Iy AT" Md other law enforcement
i~vesligatoT! io fimmciul invC!ltigations, I!IId hali been rcco!r,PiT.NI '" 3 rt li.blc bMis to suppcl1 expen lC$tiOlt)nY io
crim[oal pror.ocUlirnu.

) The: deficinlcioes citod by the UIG wilh fC!pCd 10 duelllllcniatioo oftigar«te InnSactions ~ primarily deficic:nciel
relating In ATF"'1 wmpU.nee with its OWl! (tbm-e.xistin&) policies.




                                                           -56-

                                                   -4-

Michael E. Horowitz
Inspector GCllcrJJ

could not be fully reconciled (due to insumcicnt documentation). While ATF stands accountable
for all cigarette inventory acquired in these investigations, ATF bcltcvcs that the results uflhe
reconstructive iuvenlory reconciliation p resent a more thorough and accurate accounting of
cigarettes than the figure reached by the DIG audit.

A TF provided draft. language to the DIG that sel fon h tho ATF forensic auditors' ana lys is, while
at the same time acmowledgil[g thai OIG did not conduct a peer review aflbe forensic audilors
work papers and supporting documentation and evidence. The OIG declined to include this
language in its report. As a result, the report gi ves the misleading impression that the 2 .1 million
carto!).!> of cigarettes arc actually missing as opposed to lacking proper docwnentation fro m an
accounting perspecti ve.

Wholesale Vers us Reta il Price ofCigareites

The consequcnce offailing to include the ATF' forensic auditors' ana lysis is magnified by DIG's
selection of a retai l, mlher Illan wholesale, price 10 calculate Ihe value of the unrcconciled
cigarettes. The report concludes that, based upon tbe retail price of cigarettes, the 2 . Lmi llion
carll)os of uunx:Ollci led c igareUes equale to a value of $127 million. See DIG Report, at iii, 18,
43. Using a relail price in n~l es th e val ue ohhe cigarettes, particularly in the context of
undercover trafficking operations. A TF bcLleves that the value al which it actually sold
cigarettes in these investigations -wholeRale pricing -- is Ihe more accurate and appropriale
measure of value. Tne repon ' s rationale that wholesale pricing should not be used because il
fails \0 account for the "churning funds ATF would have raised had it sold the cigarettes as part
of its invcstigation," the value of me " potcntial tax revenue lost by slate and local governments"
or "potential profits lost by legitimate busincsscs" is simply not correct. See OlG Report, at 45,
0.36. ATP chUrning investigal ions oblain cigarettes primnrily from numufacturers at or near
their eosi, and then sel l the cigarelles at wbolesale pricing to known black-market traffickers.
Black-market traffickers, in tum, realize thei r profit by evading IIIXI."S an([ selling untaxed product
at a discount to legitimate retail pricing. Henoe, ATF docs nO I '"raise" chuming funUs fro m retail
salc.q of cigarettes, alld black-markct traffickers by definition deprive stmes of lax revenue aruj
unfai rly compete with legitimate retailers by siguificanlly undercutting them on price. Hence, to
measw-e the value of cigarettes utilized in churning investigalions u.:;ifl/:: retail pricing simply
does not refl ect the reali ty of lhe market.

Assuming !bal ATF should bc held responsible for 2.1 million cartons of umeconciled c igurcltcs
- a finding tbat ATJ'I disab'TCCS with as discassed above - appl ying a wholesale price of.'; 16.36
per carton to Ihat inventory (the actual average price per carton at which ATF actually sold
cigarettes in the 20 chwning investigations DIG reviewed) would equale to II value ofS34.4
million, not S 127 million. More accurately, applying wholesale pricing to the 447,218 cart'o ns of
cigarettcs that ATF' s reconstructive in ventory was uuable 10 reconcile with sufficient
docum entation, would equale to a value 0[57.3 million.




                                                 -57-

                                                  -5-

Michael E. Horowitz
Inspector General

Rl' po rt Reco mmenda tions

In undcrtaldng the cOTTec.tive actions outlined above, ATP has already addressed nearly all ofihe
recommendations in your report. Specifically. /'ITF believes that 010 Rccomnlendation
numbers 2 through 15, and 17 have been adlln:sscd by ATF 0 3380.1, Alcoholllnd Tobacco
Enforcement Programs, implemented in April 2013 !lnd ATF 0 3200.1. Monitored Case
Program, implemented in May10 13.

In   ~ummary,   ATF's primary concern is thai the serious findings sct forth in the DIG report do ucl
accurately prescnt the complete picture of the /\ TF' today \.mdCT cum."Tl1 policy, churning
operations arc conducted in a manner consistent with the OIG recommendations and, more
importantly, in a manner that fulfills ATF's core values ofsafcty and accoW1tability.




                                                -58-

                                               -6-

Michael E. HorowitZ
Inspector General

          APPF.NnlX 1: TfMELINF. OF C HURNI NG REMEDIAl.. MEASURES

       In March 201 I, AlP's Office ofProfcssionai Responsibility II.nd Securit y Operations
       (OPRSO) issued an internaJ I\.IF report. Report of Churning Account Reyjew identifYing
       issues with the manner in which churning operations were conducted, and recommended
       a number of l:orrective aClions.

       In the fall of20 11, ATF initiated a comprehensive review of ATF', overllll lobDccO
       enforcement programs, with a particular emphnsis on the use of churning authorit y.

       1.0 July 2012. the ATF Assistant Director (FicJd Operations) issued a memorandum
       regarding the ATF '"Tobacco Enforcement Program," implementing new procedures for
       approval and oversight of tobacco cases, including requirements for financial
      Investigative Services Division (F1SD) support to ensure compliance with accounting
      standard!l and financial reponing requirements in churning C115eS.

      In August 2012, the ATF Assistant Director (Field O~rations) issued a memorandum
      regarding ""Immediate Corrective Actions for Churning Financial Reponing,"
      implementing corrective actiOfis for the reporting ofchuming requests and expenditures,
      including corrections related to lhe use of financial reporting forms. approval
      requirements for expending proceeds generated from undereover opemrions, ttnd
      reponing requirements for open churning accounts.

      In September 2012, the ATF ASSisl..arIl Dire<:tor (Field Operations) convened an Alcohol
      and Tobact.'O Enforcement Programs Orders Revision Workshop. 'fb.is workshop
      assembled a group of subject matter cxpens tasked with making sure that key
      recommendations and interim corrective measures for churning cases were incorporated
      iOlo the revised order governing alcohol atld tobacco enforcement programs.

      In February 2013, the ATf Assistant Di!"eCtor (Field Operations) issued a memorandum
      regarding "Churning Property and Reporting Rcquirt:ment.s," requiring designation of a
      Churning Account Manager in each field division, seuing out proct-dures for the
      disposition of chUrning property and for concluding a churning case, lind prc..-scribing a
      series of churning investigation policy requirements.

      In April 2013 the ATF Assistant Director (Fietd Operations) issued ATF Order 3380. 1,
      Alcohol and Tobacco Enforcement Programs. This Order sets out fomlal policy and
      instructions relating to the alcohol and tobacco enforcement progrwns within ATF.
      Chapler C ofthi~ Order specifically addrcs!ICS churning investigations, and includes
      directions for. lIJIlong other things. requesting and authorizing churning cases, monitoring
      churning cases, ensuring that financial and property reporu arc completed 8((:UJ'3tely and
      timely at the field division level and reviewed by FlSD prior to being submitted for
      management approval, managing churning proceeds and unden.'Over bank BCcounlS,




                                            -59-

                                              -7-

Michael E. Horowitz
lnspector Gem:ral

       ensuring that churned fund expenditures are appropriate. aud conducting periodic audits
       of churned funds generated and expendt:d.




                                           -60-

                                                            APPENDIX III 


              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT



      The OIG provided a draft of this audit report to the Bureau of Alcohol,
Tobacco, Firearms and Explosions (ATF) and the Office of the Deputy
Attorney General. ATF’s response is incorporated in Appendix II of this final
report. The Office of the Deputy Attorney General did not provide a formal
response but informed the OIG that it concurred with our first
recommendation. The following provides the OIG analysis of ATF’s response
and summary of actions necessary to close the report.

Analysis of ATF’s Response

       In response to our audit report, ATF did not specifically state whether
it agreed or disagreed with our recommendations. Instead, ATF’s response
stated that it agrees with the audit team that the policies and controls
governing churning investigations during the bulk of the audit period were
seriously deficient. The response further stated that ATF accepts full
responsibility for the management and oversight lapses that allowed those
deficiencies to develop. ATF’s response addressed the audit
recommendations collectively by stating that two ATF orders issued in 2013
address 15 of the 16 recommendations directed to ATF. Therefore, we
consider those 15 recommendations to be resolved and open. The
remaining recommendation is unresolved.

      In its response, ATF stated that readers of the report may inaccurately
conclude that these historical problems continue to the current day and that
the report does not reflect current ATF policy or practice. As mentioned
above, ATF stated that two ATF Orders issued in 2013 have corrected the
majority of the deficiencies we noted. However, the OIG has not been
provided evidence to verify the sufficiency of actions taken. Therefore, we
cannot conclude on the current status of ATF’s use of income-generating,
undercover operations.

       ATF’s response stated that the audit report inaccurately implies that
ATF cannot account for 2.1 million cartons of cigarettes, and incorrectly
concludes that this unreconciled inventory should be valued based on the
retail price of cigarettes sold in legal commerce rather than the actual black
market prices at which this merchandise was sold in the investigations
reviewed by the OIG. We provide the following reply to these statements



                                     -61-

before discussing the actions necessary to close this report’s
recommendations.

Unreconciled Cigarettes

      Contrary to ATF’s response, we do not state in our report that ATF
cannot account for 2.1 million cartons of cigarettes. Instead, we state in our
report that, as a result of the lack of inventory controls, including inadequate
documentation, we could not reconcile the amount of cigarettes purchased
by ATF with the number of cigarettes sold or otherwise disposed of plus the
amount of cigarettes on-hand, resulting in a 2.1 million carton difference.
Because cigarettes are easily sold on the black market, ATF should have had
strong controls, including ongoing inventories, for the cigarettes it purchased
and sold.

      ATF’s response stated that an ATF forensic audit team conducted a
comprehensive reconstructive inventory for the two largest cases among the
investigations reviewed by the OIG, and that by expanding its review beyond
documentation readily available in case files, ATF’s reconstructive inventory
showed that only 447,218 cartons of cigarettes could not be fully reconciled.
ATF’s response also stated that while ATF stands accountable for all cigarette
inventory acquired for investigations, ATF believes that the results of the
reconstructive inventory present a more thorough and accurate accounting
of cigarettes.

      Regarding ATF’s reconstructive inventory, we found that we could not
rely on ATF’s reconciliation because it: (1) used estimates, (2) included
cigarettes not purchased by ATF, (3) was revised several times based on our
inquires and with each revision the number of unreconciled cigarettes
increased, and (4) included cigarettes purchased before churning authority
was granted.

       In October 2012, we met with ATF officials and informed them that we
were not able to reconcile approximately 2.1 million cartons of cigarettes.
Between January and May 2013, a team of forensic auditors from ATF’s
Financial Investigative Services Division completed a reconstructive
inventory of cigarettes purchased and sold by two of the churning
investigations for which the OIG could not reconcile about 1.8 million cartons
of cigarettes. According to ATF officials, its reconciliation included an
extensive review of records (including documentation not maintained in case
files or investigative records), information and documentation obtained from
agencies with whom ATF had partnered, and interviews with case agents and
staff. Additionally, ATF’s review covered a different time period than the



                                     -62-

OIG’s review by including cigarettes that were obtained for the case prior to
receiving churning authority.

      When ATF first presented its reconciliation to us in May 2013, covering
2 of the 20 investigations we reviewed and 1.8 million of the 2.1 million
cartons of cigarettes we could not reconcile, ATF stated that it had reconciled
the disposition of all but 305,678 cartons of the cigarettes purchased by the
investigations. The number of cartons of cigarettes ATF currently reports as
unreconciled has increased to 447,218 following inquiries by the OIG about
the methodology ATF used to perform its reconciliation.

       In addition, we do not believe that we could rely on ATF’s
reconciliation because it used estimates. Specifically, when ATF identified a
deposit into a churning investigation account that could not be matched to
the sale of cigarettes, the ATF review team assumed that the deposits were
attributable to the sale of cigarettes and estimated the number of cigarettes
represented by the deposit. We believe ATF’s assumption that these
undocumented deposits were the result of cigarette sales is potentially faulty
because the investigations ATF reviewed sold items other than cigarettes,
such as cigars and smokeless tobacco. (Our review focused on reconciling
the disposition of only cigarettes because cigarettes were the vast majority
of the items purchased and sold by churning investigations). Finally, for one
investigation, ATF’s reconciliation included cigarettes purchased and sold by
a local law enforcement agency as part of a joint investigation. In contrast,
our audit focused only on the cigarettes purchased and sold by ATF as part
of this investigation.

        Finally, in a report provided to us by ATF on its internal reconciliation,
ATF noted “a clear lack of internal controls, oversight, training and policy to
guide ATF agents in these cases which resulted in a lack of uniformity in
procedures, required documentation, inventory controls, and accountability”.
Further, according to its report, “ATF acknowledges that the lack of policy,
controls and training certainly made it difficult for an audit to easily, if not
fully, identify and/or reconcile all of the business activity in each of these
cases, individually, or in totality.”

       For these reasons, we are unable to substantiate ATF’s review of 1.8
million of the 2.1 million cartons of cigarettes we could not reconcile.

Value of Unreconciled Cigarettes

     In its response, ATF stated that it believes that the value of the
unreconciled cigarettes discussed in our report should be based on the
wholesale price. ATF believes that the value at which it actually sold


                                      -63-

cigarettes in these investigations – wholesale pricing – is the more accurate
and appropriate measure of value. ATF stated that the OIG report’s
rationale that wholesale pricing should not be used because it fails to
account for the churning funds ATF would have raised had it sold the
cigarettes as part of its investigation, the value of the potential tax revenue
lost by state and local governments, or potential profits lost by legitimate
businesses is simply not correct. The ATF’s response further stated that
churning investigations obtain cigarettes primarily from manufacturers at or
near cost, and then sell the cigarettes at wholesale pricing to known black-
market traffickers, who in turn realize profit by evading taxes when selling
untaxed product at a discount to legitimate retail pricing.

      We disagree with this approach and used the average retail price of
cigarettes to value the unreconciled cigarettes because the retail price more
reasonably accounts for the overall economic impact, including the potential
tax revenue lost by state and local governments and the potential profits lost
by legitimate cigarette wholesalers and retailers in instances where lost or
stolen cigarettes could be purchased as a substitute for retail cigarettes.

Summary of Actions Necessary to Close the Report

   1. Resolved. The Office of the Deputy Attorney General concurred with
      our recommendation to consider implementing Department-wide
      requirements for authorizing churning requests to ensure that such
      requests are handled consistently across Department components and
      that best practices are employed by all Department components.

      This recommendation can be closed when we receive evidence that the
      Office of the Deputy Attorney General has implemented Department-
      wide requirements for authorizing churning requests to ensure that
      such requests are handled consistently across Department components
      and that best practices are employed by all Department components.

   2. Closed. We recommended that ATF consider amending the 2011
      Churning Memorandum to add the requirement of consulting with the
      relevant U.S. Attorney before employing the investigative tactic.

      According to ATF Order 3380.1, in addition to other requirements for
      the approval of churning investigations, the U.S. Attorney’s Office
      must concur in writing with the investigative plan. Therefore, this
      recommendation is closed.

   3. Resolved. We recommended that ATF establish procedures to ensure
      that requests for churning authority are approved according to existing


                                     -64-

  ATF polices, including review by ATF’s Undercover Review Committee.
  In its response, ATF stated this recommendation has been addressed
  in ATF Orders 3380.1 and 3200.1.

  This recommendation can be closed when we receive evidence of the
  procedures that the ATF has put in place to ensure all churning
  authority requests comply with ATF polices and that the requests are
  reviewed by ATF’s Undercover Review Committee, and that these
  mechanisms have been implemented.

4. Resolved. We recommended that ATF implement effective policies
   and procedures to ensure targets of income-generating undercover
   investigations are specifically identified prior to granting the
   investigation churning authority. In its response, ATF stated this
   recommendation has been addressed in ATF Orders 3380.1 and
   3200.1.

  This recommendation can be closed when we receive evidence, such
  as approved churning authorization requests, showing that approved
  churning investigation requests specifically identify the targets to be
  investigated.

5. Resolved. We recommended that ATF develop and implement criteria
   to be used by ATF officials responsible for authorizing churning
   investigations to determine whether a churning request should be
   approved. In its response, ATF stated this recommendation has been
   addressed in ATF Orders 3380.1 and 3200.1.

  This recommendation can be closed when we receive evidence to
  support the specific criteria ATF has implemented to be used by
  officials responsible for approving churning investigations.

6. Resolved. We recommended that ATF develop and implement
   effective policies and procedures to ensure unauthorized churning
   investigations do not occur. These policies and procedures could
   include periodic reviews of all investigations where income is
   generated to ensure such income is not used unless appropriately
   authorized. In its response, ATF stated this recommendation has been
   addressed in ATF Orders 3380.1 and 3200.1.

  This recommendation can be closed when we receive evidence to
  support the specific measures ATF has taken to ensure unauthorized
  churning investigations do not occur.



                                 -65-

 7. Closed. We recommended that ATF develop and finalize churning
    policy guidance and issue it in an ATF Order. After it received and
    reviewed the draft audit report, ATF provided us with ATF Order
    3380.1, implemented in April 2013. We reviewed ATF Order 3380.1
    and found that it adequately addressed our recommendation.
    Therefore, this recommendation is closed.

 8. Resolved. We recommend that ATF ensure that all tobacco procured
    for investigations is adequately documented, tracked, inventoried, and
    reconciled, including a system for the independent and periodic review
    and reconciliation of tobacco inventories by headquarters management
    staff. ATF stated this recommendation has been addressed in ATF
    Orders 3380.1 and 3200.1.

    This recommendation can be closed when we receive evidence to
    support the specific measures ATF has taken to ensure that all tobacco
    procured for investigations is adequately documented, tracked,
    inventoried, and reconciled, including a system for the independent
    and periodic review and reconciliation of tobacco inventories by
    headquarters management staff.

 9. Resolved. We recommended that ATF develop and implement
    policies and procedures to ensure that churning investigations do not
    operate outside the original authority for which they were granted.
    These policies and procedures could include using the Monitored Case
    Program to ensure that a churning operation’s targeted subject
    remains the focus of the case throughout the duration of the case.
    ATF stated this recommendation has been addressed in ATF Orders
    3380.1 and 3200.1.

    This recommendation can be closed when we receive evidence to
    support the specific measures ATF has taken to ensure churning
    investigations do not operate outside the original authority for which
    they were granted.

10.	 Resolved. We recommended that ATF ensure each churning
     investigation transaction involving the sale or purchase of tobacco as
     well as corresponding deposits and expenditures is thoroughly
     documented in N-Force. In its response, ATF stated this
     recommendation has been addressed in ATF Orders 3380.1 and
     3200.1.

    This recommendation can be closed when we receive evidence to
    support the specific measures ATF has taken to ensure all churning


                                   -66-

    investigation transactions are documented in N-Force in accordance
    with ATF policies and procedures.

11.	 Resolved. We recommended that ATF update the Monitored Case
     Program requirements to ensure ATF Headquarters can adequately
     monitor churning investigations. In its response, ATF stated this
     recommendation has been addressed in ATF Orders 3380.1 and
     3200.1.

    This recommendation can be closed when we receive a copy of ATF
    Order 3200.1, Monitored Case Program, and evidence to support the
    specific measures ATF has taken to update the Monitored Case
    Program requirements to ensure ATF Headquarters can adequately
    monitor churning investigations.

12.	 Resolved. We recommended that ATF develop and implement a
     system to ensure proper inventory, management, and disposition of
     non-tobacco assets. In its response, ATF stated this recommendation
     has been addressed in ATF Orders 3380.1 and 3200.1.

    This recommendation can be closed when we receive evidence to
    support the specific system ATF has put in place to ensure proper
    inventory, management, and disposition of non-tobacco assets.

13.	 Resolved. We recommended that ATF develop and implement
     policies and procedures to ensure the timely deposit of churning funds.
     In its response, ATF states this recommendation has been addressed
     in ATF Orders 3380.1 and 3200.1.

    This recommendation can be closed when we receive evidence to
    support specific procedures implemented to ensure the timely deposit
    of churning funds.

14.	 Resolved. We recommended that ATF design and implement a more
     streamlined process for approving expenditures and consider an
     electronic version of its approval process. In its response, ATF stated
     this recommendation has been addressed in ATF Orders 3380.1 and
     3200.1.

    This recommendation can be closed when we receive evidence of the
    streamlined process for approving expenditures of churning funds.

15.	 Resolved. We recommended that ATF develop and implement clear
     policy regarding the permissible uses of churning funds. Such policies


                                   -67-

    should, among other things, identify categories of expenses that are
    and are not permissible uses of churning funds. In its response, ATF
    stated this recommendation has been addressed in ATF Orders 3380.1.

    This recommendation can be closed when we receive evidence that
    ATF has implemented clear policy regarding the permissible uses of
    churning funds.

16.	 Unresolved. ATF did not state whether it concurred with our
     recommendation that ATF examine and update existing policies and
     procedures to ensure that churning funds are used only to offset the
     necessary and reasonable expenses of the same authorized
     investigation that generated them, and not used to fund separate
     investigations or ATF’s operations generally.

    ATF did not address this recommendation in its response. Therefore,
    the recommendation is unresolved. This recommendation can be
    resolved and closed when we receive evidence to support that ATF has
    mechanisms in place to ensure that churning funds are used only to
    offset the necessary and reasonable expenses of the same authorized
    investigation that generated them, and that those funds are not used
    to fund separate investigations or ATF’s operations generally.

17.	 Resolved. We recommended that ATF strengthen policies and
     procedures to ensure the confidentiality of confidential informants and
     undercover agents. ATF stated this recommendation has been
     addressed in ATF Orders 3380.1 and 3200.1.

    This recommendation can be closed when we receive evidence that
    ATF has implemented procedures to ensure the confidentiality of
    confidential informants and undercover agents.




                                   -68-

